<html>
<title> - [H.A.S.C. No. 114-71] EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT INVESTMENTS ON ARMY AND MARINE CORPS READINESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                   
 
                         [H.A.S.C. No. 114-71]

                   EFFECTS OF REDUCED INFRASTRUCTURE

                       AND BASE OPERATING SUPPORT

             INVESTMENTS ON ARMY AND MARINE CORPS READINESS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 3, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-822                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                                     
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York          JOAQUIN CASTRO, Texas
FRANK A. LoBIONDO, New Jersey        TAMMY DUCKWORTH, Illinois
MIKE ROGERS, Alabama                 SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
RICHARD B. NUGENT, Florida           BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               RUBEN GALLEGO, Arizona
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
               Michael Miller, Professional Staff Member
                Brian Garrett, Professional Staff Member
                        Katherine Rember, Clerk























                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Halverson, LTG David D., USA, Assistant Chief of Staff for 
  Installation Management; accompanied by MG Robert P. White, 
  USA, Deputy Chief of Staff, G3 (Operations), U.S. Army Forces 
  Command; and COL Andrew Cole, Jr., USA, Garrison Commander, 
  Fort Riley.....................................................     3
Hudson, MajGen Charles L., USMC, Commander, Marine Corps 
  Installations Command, Assistant Deputy Commandant, 
  Installations and Logistics; accompanied by MajGen Brian D. 
  Beaudreault, USMC, Commanding General, 2nd Marine Division, and 
  Col Chris Pappas, Jr., USMC, Commanding Officer, Marine Corps 
  Air Station Cherry Point.......................................    22

                                APPENDIX

Prepared Statements:

    Halverson, LTG David D., joint with MG Robert P. White and 
      COL Andrew Cole, Jr........................................    37
    Hudson, MajGen Charles L., joint with MajGen Brian D. 
      Beaudreault and Col Chris Pappas, Jr.......................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Duckworth................................................    62
    Mrs. Hartzler................................................    61
    Mr. O'Rourke.................................................    61
    Mr. Scott....................................................    61

Questions Submitted by Members Post Hearing:

    Mr. O'Rourke.................................................    70
    Mr. Wittman..................................................    65






     EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT 
             INVESTMENTS ON ARMY AND MARINE CORPS READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                        Washington, DC, Thursday, December 3, 2015.
    The subcommittee met, pursuant to call, at 8:04 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I call to order the House Armed Services 
Subcommittee on Readiness. I am going to wish everybody a good 
morning and thank our panelists for joining us. Today's hearing 
is on the ``Effects of Reduced Infrastructure and Base 
Operating Support Investments on Readiness.'' \1\ For this 
hearing, we will have two separate panels, one with the Army 
and one with the Marine Corps.
---------------------------------------------------------------------------
    \1\ The official title of this hearing was amended to read 
``Effects of Reduced Infrastructure and Base Operating Support 
Investments on Army and Marine Corps Readiness.''
---------------------------------------------------------------------------
    I would like to first welcome our distinguished panels of 
experts from the Army. This morning, we will have with us 
Lieutenant General David D. Halverson, USA [U.S. Army], 
Assistant Chief of Staff for Installation Management; Major 
General Robert P. White, U.S. Army, Deputy Chief of Staff, G-3, 
-5, and -7; and Colonel Andrew Cole, U.S. Army, Garrison 
Commander, Fort Riley, Kansas.
    Overall, operational readiness recovery has been the focus 
of much of the Readiness Subcommittee's information gathering, 
legislation, and oversight since the drawdown of forces in Iraq 
and Afghanistan. Over the past decade, the Department of 
Defense has consistently taken risk in infrastructure 
investments and reduced mission support services by redirecting 
funds from installation programs to other operational and 
training budget priorities.
    This risk has been exacerbated by uncertain funding level 
stemming from repeated continuing resolutions and 
sequestration. These infrastructure and installation support 
risks pose a challenge to the recovery of military readiness. 
The purpose of this hearing is to clarify the Army and Marine 
Corps' risk choices for infrastructure and installation 
services, also to address funding priorities and mitigation 
strategies, and to gather more detail on the current and future 
impact of these decisions on operation and training from a 
commander's perspective.
    As the witnesses testify today, I would ask that you 
address existing risks in the infrastructure and installation 
support program and impacts to readiness, and also how the 
recent 2-year budget reshape will affect those risks and 
impacts, and what will be the level of risk and impacts over 
the next 10 years if budget levels remain constant.
    I would now like to turn to our ranking member, Madeleine 
Bordallo, for any remarks that she may have.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
you for arranging this hearing on our infrastructure and its 
effect on readiness.
    And gentlemen, thank you all for being here today. Often, 
in Congress, it is the topics that intersect multiple areas of 
interest or jurisdiction that fall through the cracks, or they 
struggle to get the attention they deserve. I have personally 
experienced the challenge of working on several issues that 
cross the lines of work being performed by the Armed Services 
Committee and the Natural Resources Committee.
    We are lucky that this intersectional topic, that of 
infrastructure and readiness, happens to fall almost completely 
within the jurisdiction of this subcommittee. Over the years, 
this committee has held hearings on the state of our military 
infrastructure and the impact that budget decisions have had on 
the Department's [Department of Defense] ability to maintain 
that infrastructure.
    Similarly, this subcommittee has closely examined issues 
impacting the state of our military's readiness and the 
devastating impacts that sequestration have had. However, I do 
believe this is the first time we have held a subcommittee 
hearing where we look at the intersection and attempt to 
understand the impact that budget decisions on military 
infrastructure and installation support are having and will 
have on training and readiness in the future.
    We have heard evidence from several military installations 
that are indicative of adverse impacts to training and 
operations due to degraded infrastructure and installation 
support. So if this is the case, the subcommittee needs to 
understand what those impacts are and what needs to be done to 
address the situation.
    Already our full spectrum readiness recovery timelines 
extend beyond 2020, and even that is only with stable funding. 
Maintenance can only be deferred for so long before 
consequences have the potential to be catastrophic, and we need 
to ensure that we don't get to that point by protecting our 
infrastructure because there is no question that without it, we 
are incapable of generating readiness.
    So, again, Mr. Chairman, I thank you, and I look forward to 
hearing from our witnesses this morning.
    Mr. Wittman. Thank you, Madeleine.
    General Halverson, we will begin with you. I would ask that 
you limit your comments to 5 minutes or less. Your written 
testimony has been made available to the members and is entered 
into the official record, so I will now turn the floor to you.

 STATEMENT OF LTG DAVID D. HALVERSON, USA, ASSISTANT CHIEF OF 
STAFF FOR INSTALLATION MANAGEMENT; ACCOMPANIED BY MG ROBERT P. 
 WHITE, USA, DEPUTY CHIEF OF STAFF, G3 (OPERATIONS), U.S. ARMY 
    FORCES COMMAND, AND COL ANDREW COLE, JR., USA, GARRISON 
                     COMMANDER, FORT RILEY

    General Halverson. I thank you, Chairman Wittman and 
Ranking Member Bordallo, and the distinguished members of the 
committee for allowing us the opportunity to discuss the 
effects of this reduced infrastructure and base operating 
investments on Army readiness. Joining me today, obviously, are 
General White, the Forces Command operations officer, and you 
know, Andrew Cole, the garrison commander at Fort Riley, which 
will give you a good perspective of the one who is in charge of 
readiness, like Pat [General White], and tracking its readiness 
and with the impact and where they want to go, to someone who 
has to execute it at the day-to-day level of trying to provide 
that support to the commander as they build that readiness, 
especially for decisive operations.
    I also want to thank you for your support in the recently 
passed Fiscal Year 2016 National Defense [Authorization] Act. 
We really appreciate your all's work and to make sure that we 
do have the funds available to make sure that we can and do 
train our force.
    The Army is at a critical point in installation readiness. 
Budget constraints are affecting the Army's ability to provide 
facilities that our All-Volunteer Force and their families 
depend upon to sustain readiness. Our installations truly are 
our Army's home, and the availability of the quality ranges, 
maneuver areas, airfields, classrooms are essential to a unit's 
and the institutional Army's ability to train.
    As we say, installations serve as the readiness platforms 
for our Army and its training. Our Chief of Staff, General 
Milley, clearly stated that his number one priority in this 
complex environment is readiness and there is no other number 
one, so for that reason, it is important and vital that we 
focus our efforts to provide that realistic training 
environment so our soldiers have the ability to fight and win.
    Over the past year and a half, I have visited many 
installations throughout the globe and met our men and women 
that provide that care to our installations and the soldiers 
and the families that then live on those posts. These men and 
women operate and maintain the training areas, the airfields, 
the maintenance, ensure that the sewers, the lights go on, all 
these type of things that provide that capability to set the 
environment so therefore our soldiers can have that realistic 
aspect of what they need to be able to do, to have the 
overmatch and the capability and the confidence they need to be 
able to win.
    And we are working hard to mitigate, as you said, the 
reduced funding brought on by the Budget Control Act of 2011 
[BCA]. Even with their efforts, the persistent funding 
constraints and the cumulative rising costs of the personnel, 
of energy, construction, water, and engineering services have 
forced the Army to take risk in installations to maintain a 
ready force.
    The reduced buying power due to these rising costs drove 
significant personnel and service reductions. The cumulative 
effect of these reductions impact the throughput of our 
soldiers and the training and the number of rotations we can 
support. The direct effect of these reductions in the garrisons 
being that many of the areas were at the razor's edge of 
manning to provide those enablers that the units need.
    Even with BRAC [Base Realignment and Closure] 2005 
improvements in infrastructure and reposturing, the fiscal 
realities are showing the decline in our facilities, and are 
affecting our future readiness. As the chairman says, how we 
are going to be postured for the future and what we need to be 
doing? You have to invest now. So those long-term challenges 
are there.
    The Army's installations are the power-projection 
platforms, enabling the readiness and ensuring deployable 
combat forces, but what we are seeing, as I visited, the 
personnel tempo and the operational tempo is increasing because 
of our decreasing number of soldiers that we do have as we go 
to 490 [thousand] and then to 450 [thousand], and so, 
therefore, the Army is very concerned about the risk of the 
installation funding and its effect on the total Army.
    I am just very pleased to be able to answer your questions 
and then hear what the panel--because this is, like you have 
mentioned, the first time people are starting to understand 
that your installations and your investments equate to enabling 
our ability to train our forces that we need now and in the 
future. So I look forward to the questions that you may have. 
Thank you.
    [The joint prepared statement of General Halverson, General 
White, and Colonel Cole can be found in the Appendix on page 
37.]
    Mr. Wittman. Thank you, General Halverson. We appreciate 
the opportunity to get a little further understanding about how 
installation capacity and the current budget situation affects 
Army capability, and we appreciate your perspective on that.
    As you had spoken of, there are a number of challenges, I 
think, that all of our service branches face but especially our 
Army and our Marine Corps. If you can give us a perspective on 
what categories of facilities and the types of installation 
services are most important in raising and sustaining levels of 
Army readiness, and given the consecutive years of funding 
where funding has been reduced, the things that you have had to 
do to try to sustain that, where do you believe you need to go 
to recapture or to recapitalize in these areas?
    General Halverson. Chairman, that is a great question. I 
say the biggest things that we have to be able to provide 
enablers, for General White and his forces and the senior 
commanders, are our ability to have the ranges available. As we 
sit there and we have gone through the last 13-plus years of 
war, what we found out, we were doing a lot of asymmetric 
things where things were fairly static, where we had FOB 
[forward operating base] base structures and then, before, we 
had to be able to train.
    As we now have gone to decisive operations, what we found 
out that we did not have the targetry or the other aspects that 
we needed to facilitate our home station training that we need 
to then optimize our decisive operations that we have at our 
combat training centers. That is one aspect, so, therefore, we 
really have to look at our training support systems and our 
other systems that we have in our ranges to be able to 
facilitate these requirements that we do.
    The same thing is--so, therefore, folks like range control, 
air traffic control folks, all these types of things are areas 
that we have to invest. What we found out is that, because of 
the rotational model, we never had the full force at home 
stationed at the same time as they are there, so, therefore, 
the scheduling of ranges, the optimizations. Usually we used to 
go to a model of a 6-week lock-in. What we are finding now in 
many of our installations that we have to go a lot further 
because of the availability of the ranges that we do have.
    A place like Fort Huachuca may have only five of the nine 
ranges available to it because of a manning shortage for our 
ability, so we have to plan out farther. We have to leverage 
these things.
    The second thing we have to really start investing on from 
an investment perspective are things like live, virtual, and 
constructive aspects of how do we optimize time. So we need 
simulators to be able to facilitate those things so we can 
integrate those types of things. I think General White can just 
kind of say what he would need as he sees these mission control 
aspects and home station training control approaches or 
capabilities that he needs at his home station. Pat.
    General White. Thank you, sir, and Chairman.
    So there are four things you need to generate readiness. 
You need airspace. You need land. You need IT [information 
technology] infrastructure so you can push through the pipes. 
And you need personnel--well, really five, and time. We have 
taken risk as an Army over the past 10 years by pushing our 
resources into the direct readiness generator, which happens to 
be OPTEMPO, operations tempo, and taken risk on infrastructure 
at facilities. I will give you an example, one vignette, to how 
this has affected this Army taking risk.
    So we are programmed to finish a company gunnery on a range 
in 12 days. That is what is programmed. That is what our 
strategy says. That is how we are resourced for ammunition, 
fuel, and time. Because of some of the issues that General 
Halverson mentioned, it now takes us 14 to 16 days to complete 
what should be done in 10 to 12 days.
    So there is more time spent on the range. That is due to 
many factors. One is manning of range control personnel, 16 
hours, 5 days a week, vice 24 hours, 7 days a week. There is 
the currency of the targetry. As many of you have visited our 
installations and our ranges, we have digital multipurpose 
ranges at some installation. We have what you call multipurpose 
ranges at other installations, and so that affects our timeline 
as well because the digital is very complex. Soldiers can't put 
their hands on it, not allowed to; it is contracted out. And 
they are contracted for 16/5 [hours/days per week].
    A place that has an MPRC [Multi-Purpose Range Complex], you 
can put soldiers, touch targets, touch target lifters, and help 
with the range. So long way around of saying, because of the 
risk that we take, and we are now starting to see the effects 
of how much time it takes to generate readiness at our tactical 
levels, and I am sure we will cover more on the subject of 
airspace, which is crucial to our readiness as well.
    Mr. Wittman. Thank you.
    Colonel Cole, I want to get your perspective. If you would 
let us know, how does corporate Army infrastructure and 
installation support decisions and guidance impact your ability 
to provide mission support for operations there at Fort Riley?
    Colonel Cole. Good morning, Chairman. I appreciate that 
question. It, in some instances, can be a little bit of a 
challenge. So, from this perspective, as we talk about ranges, 
to kind of continue that thread of discussion, one of the 
things that has impacted us at the local level is a thing 
called contractor de-scope. So those contract support services 
that we have out on the ranges that help us maintain and help 
us operate those ranges have been going through a review on, 
what should the size of that contract be? And, ultimately, at 
the end of that string down at the installation level, it 
challenges us with being able to provide the appropriate 
support and meet the senior commander's training requirements.
    So with this full nest concept, kind of as we have 
discussed earlier, with more forces home--and you can even add 
an additional piece to that, which is Reserve and National 
Guard units that come to an RCTC [Reserve Components Training 
Center]. So Fort Riley is one of those locations; we have to 
factor them into what we call our gun line. And so it becomes 
to put a stress on your ability to fit all the units that are 
home, to turn that range maintenance so that it is reset for 
another unit to come in.
    So that is just an example of how it can be challenging 
down at the local level.
    Mr. Wittman. Very good.
    General White, you gave us a good perspective on how the 
current impacts installation support is affecting readiness. 
Give us your perspective on how this new 2-year budget window 
now affects that ability. What does it do to either allow you 
or not to allow you to regenerate certain elements of readiness 
through installation infrastructure and support?
    General White. Thank you, Mr. Chairman.
    The analysis that we have done to this point, based on what 
we know, is we will decrement our operations tempo because we 
have taken so much risk in the past 10 years on our 
infrastructure, so although the Chief's priority is readiness 
and it is generated through the installation platforms and with 
operations tempo, it looks as if what we will decide to do in 
the future if we continue to take decrements is to go after the 
operations tempo of units, which means less time on ranges, 
which means it takes longer to generate readiness.
    Mr. Wittman. Got you. Very good.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I have a couple of questions here. I think, General 
Halverson, you or any of the others may be able to answer.
    At what level are the connections made between the training 
requirements of a unit and the ability of an installation to 
support those training requirements, and how often are they 
reevaluated? In other words, at what level are the decisions 
impacting military infrastructure and installation support 
being coordinated with those in charge of training and 
operation requirements?
    General.
    General Halverson. Ma'am, that is a great question because 
it is very complex. Obviously, we have our processes where we 
sit there and build our requirements of what they need, how 
many soldiers will be there, what is the availability of the 
ranges, and all those types of things, so we have a good 
process from a corporate perspective from us to be able to take 
those requirements, vet those requirements, and to be able to, 
like Pat was saying, how do you go then from what is your 
priorities, and then prioritize these as what we need from a 
funding perspective.
    What we try to do--and it is really a bottom-up--you know, 
it is a top-down but a bottom-up refinement of it that we try 
to identify with these requirements because we want the senior 
commander who is responsible for that organization to have the 
impact that he needs to do this.
    This is where the challenge like with Andrew [COL Cole] has 
because I have a certain amount of funding level that then 
impacts my ability to say how much I can do. It is going to be 
very, very hard for him to then be able to execute it.
    So like what Andrew is saying, I have had to be able to 
take risk because personnel costs are high, are a high cost 
driver for things, so that is a place that we have to look at: 
How can you be more efficient or more effective with less 
people? At times, it becomes a tension point to him when the 
senior commander then says, I will give him, you know, like he 
was saying, 16 hours, 5 days a week, but he really needs 16 
hours, 7 days a week, for him to execute the extra time he 
needs.
    So we then start going with overtime or other issues that 
then at the end of the day, when you rebalance yourself, it is 
all from one pot, and that is what the challenge is from us, 
from a corporate. So we have a good process of doing that, but 
we push down that then to him to integrate that at the local 
level to ensure that he meets the senior commander's 
objectives.
    He then has that perspective of--and then this is where 
some of the risk comes in, as you well know. That he, because 
he will need to be able to push money somewhere, will then 
defer other maintenance he has to do in some of his other 
infrastructure stuff, which could be barracks for the housing 
for our soldiers or for his ability to do some restoration or 
modernization. That is the challenge, I think, Andrew has, and 
he can probably, you know, articulate that at little bit better 
at the local level.
    Andrew.
    Ms. Bordallo. Colonel.
    Colonel Cole. Yes, ma'am. The other challenge that we often 
face is as budgets are passed down and we receive what our 
local discretionary authorization is for what we call our 
sustainment, our restoration and modernization budgets, 
oftentimes we are having to take risk between where can we 
accept a greater risk in doing standard maintenance of 
facilities versus our restoration and modernization, which we 
have to use to program to do significant repair of facilities.
    So with that being said, over the last number of years, we 
have received a lesser percentage of what we believe to be our 
requirements are for facilities maintenance plans. So when you 
compound that effect, one of the challenges today is, how do we 
take what we really need 90 percent of our funding for but yet 
we have only received, for example, 65 percent, where do we 
accept that 15 percent of risk?
    And so we make choices, and we make some decisions, and 
ultimately, if there is a catastrophic failure, then we have to 
end up allocating our funding against that. And we don't have 
the space, we don't have the flexibility to treat our normal 
maintenance plan.
    So, as an example, one of our headquarters buildings was 
located in a historical facility at Fort Riley. Because of the 
constraint in funding for maintenance, we weren't able to do 
some of the preventative checks on that building. Ultimately, 
we had what we call a glycol hose leak, so the HVAC [heating, 
ventilating, and air conditioning] system failed over a long 
weekend.
    With that being said, we had, for lack of a better word, 
coolant leak over about three different floors, which did 
significant damage to the building. When you go back and try to 
repair those tiles, you now have pulled back asbestos tiles, so 
now you have not only run into a repair issue, you have now run 
into an asbestos abatement issue. So could we, if we had had 
the appropriate funding to do the sustainment of that building, 
maybe what could have cost us then thousands of dollars would 
not now cost us multimillion dollars in repair?
    Ms. Bordallo. Thank you.
    And it is certainly a challenge. I have one other question.
    How have base operation support programs been impacted by 
repeated reliance on continuing resolutions rather than an 
annual appropriation and the attendant lack of predictability 
in the timing and the amount of allocation of funding? Can you 
give specific examples of how this impacts training and 
readiness? General.
    General Halverson. Ma'am, the bottom line, yes, because 
with a continuing resolution, you have less buying power for 
what you need. So the predictability like we have had with at 
least a budget, we can then make good fiscal decisions on how 
we can then write our contracts to get more capability for less 
price.
    So when you have the continuing resolutions for month per 
month or quarter by quarter, it causes us to spend more because 
of the workforce aspect of it.
    The second thing is, also, it is just a strain on the 
workforce to be able to manage that because now you are having 
to touch it a few times every year and not being able to have 
some comfort levels where you are monitoring the contract 
instead of just sitting there, you know, doing it. So what we 
are finding from the workforce stress is that there is also 
workforce stress for them to be able to monitor it.
    Ms. Bordallo. Right.
    General Halverson. So getting away from continuing 
resolutions and getting more predictability will greatly affect 
our readiness because we will be able to buy more capability 
for less dollars. That is the predictability that we need 
within the installations.
    What happens is that we get caught up into the day-by-day 
aspect of not knowing the unknown, which then causes chaos, I 
think, and not being as predictive as we need to. And it gets 
really down into like what Andrew was saying, is that when you 
are only doing sustainment at a certain level, which really 
means you are not doing your oil checks, right, and so, 
therefore, you are not checking that stuff, you are not putting 
your eyes on those things to make sure that you are doing it. 
You are waiting for the life, safety, and health issues that go 
on.
    And in a lot of locations where we are, we just have a 
challenge with that because, you know, if you don't have HVACs 
working, you are going to have mold and you are going to have a 
health issue. And that is where the garrison commanders and 
their team and their senior commanders are putting forth some 
of their effort so, but----
    Ms. Bordallo. Well, I can understand----
    General Halverson [continuing]. And we appreciate that to 
try to get away from CR [continuing resolutions].
    Ms. Bordallo. Yes, I can understand the challenges.
    I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen. It is great to see you, and I look 
forward to getting to visit with you, Colonel, at our sister 
installation there across the Kansas line, but we in western 
Missouri certainly appreciate all you do at Fort Riley, and 
Fort Leonard Wood, certainly very, very important mission 
there.
    I have some general questions about the topic, but I wanted 
to start more specifically about something that happened at 
Ford Leonard Wood that deals with installations in general and 
safety of our soldiers. About 5 days before I was sworn into 
office in January 2011, you remember, there was a tornado on 
New Year's Day that went through Fort Leonard Wood and 
destroyed several homes, as well as part of--impacted some 
other infrastructure there. I believe the sewer plant, et 
cetera. And, thankfully, no one was hurt seriously or killed, 
and it was just the perfect day if you were going to have 
something that happened, a lot of the soldiers were gone.
    But looking back on it, it raised a lot of concerns about 
safety. The homes didn't have basements. They didn't have 
places for the families to go. And it went through the--as you 
remember--a lot of the training grounds. And the thought was, 
if, on a normal day, there would be thousands of soldiers out 
there, and there was no place to go in the event of a tornado.
    And since that time, I know they have installed some 
facilities where soldiers can do that. But when you live in 
Tornado Alley--and I know Colonel Cole probably appreciates 
this. I am just wondering, because at that time, General 
Quantock was the commander there, did a wonderful job, and 
thankfully we had the engineering school there with all the 
equipment, able to quickly help clean things up and get going.
    But I followed this for a while, and I haven't asked the 
question lately. What are we learning from this, and what 
lessons have been learned installation-wide to putting 
facilities in place for soldiers in the event of a tornado? And 
has there been any changes made to Fort Riley as a result of 
the tornado or any vulnerabilities that we discovered may be 
needed to be addressed?
    General Halverson. Ma'am, good question. I commanded Fort 
Sill, which is Oklahoma, which is Tornado Alley, too. And one 
of things that we have done, just like you said, is as we have 
looked at our housing, how do you exercise and how do you have 
evacuation places that do have, like you are saying, tornado. 
We are not at the level that we need to be, you know what I 
mean, and we are looking at, holistically, at the effects of 
some of those.
    But, once again, the challenge we have is as I look at that 
and as we are looking very firmly at those, the ability to put 
those in when you have other driving costs, so it is a fiscal--
when you have fiscal constraints, and from a priorities, how do 
you get these, as you know, safe houses and stuff like that. So 
within Fort Sill, we did put in some of those and maintain 
those and then have to make sure that the people are aware.
    They are not at the numbers that they need to be because it 
was not integrated in the original plans, but I think that is 
one I will take for the record and give you the pure thing from 
a policy perspective of where we are.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mrs. Hartzler. And, again, I know the housing that was 
rebuilt, they put a safe room in.
    General Halverson. Right.
    Mrs. Hartzler. But there is still a lot of housing that is 
old and maybe doesn't have that, but, you know, I just think 
that is a practical thing that can happen, and then dealing 
with installations, we need to make sure that our soldiers are 
safe, whether it be on the training ground or their families 
and their housing, so----
    General Halverson. I agree totally, ma'am.
    Mrs. Hartzler. Sure. Regarding maintenance, another 
question that comes from home.
    Hard to see you. There we go. There you go. Dr. Wenstrup, 
thank you.
    Dealing with maintenance. I have heard from local people 
both sides of it. Some have argued that we need to be using the 
Active Duty soldiers more in doing maintenance on the bases, 
that they have the capabilities. Why aren't they asphalting? 
Why aren't they doing groundskeeping? Why aren't they doing 
some of these other basic things that could be carried out? And 
the argument is that that would be most cost-effective, plus 
they could use their skills.
    Then I have heard from other people to say: Well, we need 
to contract out more to private entities and that it would be 
more cost-effective.
    So as we are looking at limited dollars here, installation, 
maintenance cost, what is your matrix to determining if you ask 
the soldiers to do the work around the base or versus you go 
private, and which is more cost-effective?
    General Halverson. That is a good question. The issue here 
is it is really called borrowed military manpower that we do. 
So some places, like Forces Command, where you have a large 
TO&E [Table of Organization and Equipment], you have a lot more 
capability and flexibility to be able to do that, so things 
like force protection, gate access and stuff, where it is a 
skill set that we use when we go to FOBs or if we get deployed, 
you may have to do it, has a one-to-one correlations.
    There are other issues, as you know, from a soldier's 
perspective, what, you know, is--it is part of life. So you 
have to have the capability. For a TRADOC [Training and 
Doctrine Command] post, they have very little capabilities, 
like what Fort Leonard Wood is, because you basically have your 
drill sergeants or you have a schoolhouse that then has very 
minimal capability to have soldiers because they are either in 
the classroom or they are teaching or instructing young 
engineers, chemical, and the capabilities you have like at 
Leonard Wood.
    So what we are seeing is that TRADOC posts have very little 
capability and you have--where we can do it, like a FORSCOM 
[U.S. Army Forces Command] post, we will have them manage that 
internally of what they have to provide services for that 
capability.
    From a cost-effectiveness--the model is various things. 
Much of the things that we are talking about, it could be 
ground maintenance or whatever, is not cost-effective because 
what you are doing is you are taking a soldier away from his 
collective or individual training time, and what we are seeing 
is that you need repetitions, just like in the weight room, to 
be an infantryman, to be an engineer, and you need to spend 
time in your squad or those aspects that you do.
    So it is a very, very fine line that commanders have to 
articulate and balance that readiness equation.
    But you know, Pat, you may have something on that, but that 
is really where the concern is.
    Mrs. Hartzler. Thank you.
    Colonel Cole. Ma'am, if I can just add real quick--and I 
think we do--at the local level, we really do try to do our 
best, and then giving you an example. For example, for 
engineering work. So at a FORSCOM installation, where we have a 
number of differing disciplines, when we come across those 
projects that may be able to be done by some of our military 
engineers, we do do the crosswalk.
    So in those instances where you can meet both the 
requirements of the installation and also count that as 
appropriate training in the military occupational specialty of 
that soldier, then we do seek those instances out. So there are 
some engineering projects that we are asking our engineer 
brigade to do because they have the talent, they have the 
skills, and it counts for training because they would do that 
potentially on a mission someplace.
    So in those instances where we compare them and line them 
up, we do attempt to do that and, again, be cost-effective.
    Mr. Wittman. Very good.
    Thank you, Mrs. Hartzler.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    The 18 percent excess infrastructure that the Army has, 
what force size is that based on, or is it directly correlated?
    General Halverson. Congressman, obviously, when we talk 
about the excess capacity and the things that we talked, 18 
percent, that is for a force size of Active Duty of a 490 
[thousand] force, in which we are at now, you know, I mean, and 
obviously, we are going to 450 [thousand] in the near term.
    Mr. O'Rourke. And how elastic are those perimeters? So if 
we went down to 420 [thousand], does the percentage increase if 
we went to 550 [thousand]? Does the percentage decrease, or is 
that 18 percent cover a band of, you know, 50,000, 60,000.
    General Halverson. Obviously, that is our best guess right 
now. We have an order out for all of our garrison and our 
senior commanders to be able to look at their excess capacity, 
so it is our best estimate. Obviously, you know, we would need 
more guidance from Congress to be able to look in detail what 
we think our excess capacity is, but our best----
    Mr. O'Rourke. Are you saying without a BRAC process, you 
cannot get that detail?
    General Halverson. Without a BRAC process where we could 
actually look at what our capacity is for this. The bottom line 
is that we have the same amount of posts, 155 installations for 
a force that we had of 460 [thousand] in the Active, now going 
down to 450 [thousand]. So it is a huge gap that we have, and 
the challenge we have is that we can't optimize our investments 
or optimize if we don't have some authority to study like a 
BRAC and how we can move forward.
    Mr. O'Rourke. Got you. Yeah. And so understanding that a 
BRAC would give you more detail, where you are now, what is the 
estimate on what it costs you to maintain that 18 percent?
    General Halverson. Sir, right now, the rough estimates as 
we know, it is about $480 million a year that we spend on the 
excess capacity that we do have because you need to keep those 
buildings going; you need to have water and all those types of 
things. So it is about $480 million a year that we have because 
of excess capacity. Our initial estimates with 450 [thousand] 
is like 21 percent, so it goes up to almost $470 million of 
the--$570 million that you need----
    Mr. O'Rourke. So somewhere around half a billion dollars. 
How much readiness annually would that buy you?
    General Halverson. That would buy a lot of readiness, and 
it would also focus our efforts that we would need for 
investment purposes to get the quality ranges and the manpower 
and the human capital that we need to ensure the top quality.
    Mr. O'Rourke. Beyond the dollar amount, is there a way to 
quantify or qualify or illustrate that readiness that we would 
be able to purchase?
    General Halverson. We do that----
    Mr. O'Rourke. What are we not doing now that we would be 
able to do going forward?
    General Halverson. I could take that for the record, but 
you are right, we could--obviously, Pat knows, the money he 
gets in his OMA [Operations and Maintenance, Army] account a 
year in the multibillions, that $500 is a--you know, is a good 
chunk of change that he could buy flying hours; he could buy 
other issues that he would need to be able to sustain his 
force.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. O'Rourke. Yeah. And it would be, and perhaps this is 
pending a BRAC process, but I would like to know the band of 
force size that we would have with that reduction in excess 
capacity.
    For example, you know, given all the threats that we 
encounter today from, you know, Central Asia to the Middle East 
to potential future threats in the South China Sea, I think we 
want to have the ability to ramp up, and I don't think anybody 
wants to get down to the sequester level of 420 [thousand].
    So I just want to make sure that we wouldn't be necessarily 
cutting anything that would prevent us from increasing force 
size, but if readiness is the single greatest priority, as you 
said earlier, and if it is going to determine the success and 
perhaps even survival of our service members overseas, I want 
to make sure that we are investing in that sufficiently. And if 
this is a way to get there, then, you know, I want to find a 
way to do that.
    I do have a follow-up question to one that Ms. Hartzler 
asked. We were recently in Afghanistan and meeting with one of 
the commanders at one of the installations there, one of the 
bases. They essentially talked about transferring 
responsibilities from service members to contractors as we drew 
down our force size there and perhaps creating or seeing some 
efficiencies. You, in answer to her question, mentioned why 
contractors make sense to allow service members to focus on 
their responsibilities. Do you see any costs or negative 
consequences of our reliance on contractors?
    General Halverson. It is a triad balance between our 
military, our DA [Department of the Army] civilian, and our 
contractor. I think that triad is good. If you are overreliant 
on one of them, you are out of balance, and at times, we are 
out of balance because you have to be very firm on your 
contracting approaches that you do have.
    So we are at that razor's edge, like I said, for myself 
personally because when you come down like in forces, we were 
saying the 490 [thousand] to 450 [thousand], we have done a 
RAND study here where it is not a one to one. Some people think 
it is a one to one. You take a soldier out; you can take a DA 
civilian out to run an installation. Our workload is really 
over how many square foot of buildings you have, how many 
square miles that we have to be able to maintain.
    So when you have an infrastructure of 155 installations we 
have, I mean, that infrastructure portfolio is valued over $300 
billion, you know what I mean, and really, when you talk about 
the percentages that we are putting in for sustainment, we are 
only putting in 1 to 3 percent of those in sustainment for 
infrastructure we have.
    So, from that perspective, that is why we have to optimize 
all this stuff, and so I appreciate your questioning.
    Mr. O'Rourke. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. O'Rourke.
    And there is language in this year's NDAA [National Defense 
Authorization Act] to direct all the individual service 
branches to do a capacity analysis, and so that we get a modern 
one. The other one is just a projection from the 2005 analysis, 
just projecting it forward. We have asked them to do a detailed 
analysis so we can truly look at what the capacity is, whether 
over capacity on a service-branch-by-service-branch basis, so 
we should have that information for next year. Very good.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Colonel Cole, I am one of the few people that has actually 
gone to Riley County, Kansas, from time to time voluntarily. I 
hunt in that Tuttle Creek area from time to time. But one of 
the stories I have heard out there--and I have been hunting out 
there for years--is that the Army was forced to put in 
skylights at a big tank facility because of an energy mandate 
that Congress had passed down and that when they got the 
skylights in, the contractor didn't unhook the electric lights. 
And so there was a tremendous amount of money spent but no 
reduction in the amount of energy used.
    Are you familiar with that story? Can you tell me if that 
is true or not?
    Colonel Cole. Sir, thanks for that question. I am going to 
ask if I can take it for the record to check that. I am not 
familiar with that specific story. And while I track our 
energy, our energy consumption, and where we are at on reducing 
that, I am not familiar with that one, sir.
    [The information referred to can be found in the Appendix 
on page 62.]
    Mr. Scott. General, you were shaking your head ``yes,'' 
that maybe you had heard about that?
    General Halverson. No, I have not, but, you know, nothing 
surprises me being in the military 36 years, whatever, so we 
are really working, you know, sir, on the renewable energies 
and to be able to get within our perspectives. That is one of 
the, obviously, the net zero and other issues that we are 
really trying to work toward----
    Mr. Scott [continuing]. And we all know this, but if you 
put skylights in and then you don't unhook any of the 
fluorescent lights, then there is no net energy savings. There 
is just a cost of putting the skylights in.
    General Halverson. I agree totally.
    Mr. Scott. And that is one of the things that, you know, as 
I am traveling around, we all get kind of ribbed a little bit 
about how, you know, the military says they are broke and look 
how much money they waste on these things, and it is somewhat 
friendly ribbing, if you will, from friends, but it is also a 
concern of mine because that money can be--we don't have the 
money to waste, and certainly I am concerned about the 
environment and think we should do our part, but we also need 
to be smart about what--you know, doing something for the sake 
of saying that we did it----
    General Halverson. Right.
    Mr. Scott [continuing]. Is different than doing something 
and accomplishing something, and I would just----
    General Halverson. So I think that is really important 
because that is one of the things we have seen with our energy 
conservation because you have to really--everyone is involved 
in energy conservation like you are seeing soldiers in that, so 
half the campaign is working with, you know, our leaders and 
stuff to make sure that we are driving down usage and stuff and 
doing the smart things like you said, and that is why----
    Mr. Scott. Let me--if I could, and I apologize. I mean no 
disrespect. I only have 5 minutes. But the other thing I would 
tell you as somebody from Georgia--and I have a lot of friends 
who have done work on the bases--Davis-Bacon, the same person 
that I pay $45 or $50 an hour to someone who is in a business 
to work on my house or a building or something, when they are 
working on a military facility, because of Davis-Bacon, the 
military is being billed twice that. I mean, even the 
contractors complain about it. Can you speak to that issue? Do 
we know how much Davis-Bacon is costing us?
    General Halverson. Sir, I will take that for the record, 
the aspect of what we do for small business and disadvantaged 
business and stuff. To let----
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Scott. I am talking about--well, some of them are 
minority-owned, but some of them aren't.
    General Halverson. Right. No, I agree. But one of the 
things I would tell you is that is an area that we are looking 
at greatly because of what you said. You have to be able to get 
your best value for the dollar you have in constrained fiscally 
tough things. So my new operations director I brought into the 
ACSIM [Assistant Chief of Staff for Installation Management] 
used to be the contracting commander that we had at Huntsville. 
His number one issue was to look at our buying power and where 
we have these cost drivers that really need to be looked at 
because of the fair value that we do need to gain, yeah.
    Mr. Scott. Point being, the same contractor is charging the 
military significantly more for the exact same work because of 
other laws that are on the books that are forcing--that are 
changing the cost of the bid, and that is--this has already 
been mentioned. The military is quick to give us a dollar 
figure of what the excess capacity is costing us.
    If you can give us the dollar figure on what it is costing 
us, then you absolutely have to be able to tell us where that 
is coming from. I don't believe that you can calculate it 
without knowing where it is coming from, and then if you could 
speak briefly to enhanced-use leases and whether or not you 
think that is an efficient way for us to spend dollars.
    General Halverson. Let me take that one for the record, the 
advanced-use lease and stuff like that, you know, Congressman, 
okay.
    [The information referred to can be found in the Appendix 
on page 62.]
    Mr. Scott. That is fine.
    General Halverson. I appreciate that.
    Mr. Scott. Thank you.
    Mr. Wittman. Thank you, Mr. Scott.
    We now go to Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Just to touch on Davis-Bacon, I mean, General, I would 
assume that you would not want to be responsible for avoiding 
Davis-Bacon, to try to get around Davis-Bacon, and if you were 
to use a contractor that did not pay the wages according to 
Davis-Bacon, you are more likely to use someone who is 
exploiting undocumented workers, someone who is perhaps 
participating in wage theft, so there is a reason that Davis-
Bacon is there, and that is to protect the workers.
    So I want to return to the conversation on readiness 
levels. To what extent do your reporting for readiness levels 
reflect the conditions of your facilities? For example, are 
there data points that you are reporting, metrics that you are 
reporting that say, you know, my readiness level would be, you 
know, I would be a green, but I am an amber because I have 
these particular facilities that I am being forced to maintain?
    General Halverson. I will give you the macro aspect.
    And then, Andrew, you can talk to your own installation.
    We have a very detailed what we call installation status 
report that our commanders then--those have all the metrics we 
have, be it from the facilities to the range control to 
airfields and all those things. And we view these aspects of 
what we do have from there.
    So a Q1 and Q2 are good facilities and ones that we have--
or the Q3 and the Q4, Q4 being the worst, are the ones that are 
not. What we have seen is that with BRAC 2005, we had an 
increase where we were from 19 percent up to 30--60 percent, 
and now we are seeing a degradation of our readiness because of 
sustained funding, so we are seeing a dip in our Q [quality] 
ratings in our facilities because of decreased funding or 
ability to do the sustainment and the restoration and 
modernization that we do need in some of the facilities.
    But, Andrew, you can probably talk to Fort Riley.
    Colonel Cole. Congresswoman, yes, so we have those local 
challenges. And we do, again, our best because it is--part of 
it is predictability of where do we anticipate that we need to, 
based on our ratings that we input into the what we call our 
Web RPLANS [Real Property Planning and Analysis System], which 
has then enterprise-level visibility, where do we go and 
allocate resources against improving something from a Q3, for 
example, or an F3, facilities code 3 rating, to a 2 or a 1.
    But in those instances, when you have a plan and because of 
constrained resources, something occurs that you have to re-
shift or reprogram funds that now inhibits your ability to 
maybe address that red or that lower rating to get it improved 
because now you have had to address a life, health, and safety 
issue.
    For example, if, at the childcare centers, you lose an HVAC 
system, that is where your priority is going to be versus going 
into that operations facility for that company and improving a 
COF [Company Operations Facility] or improving another one of 
your facilities, so it becomes risk acceptance. But we do 
quarterly report these to our higher headquarters and to the 
Army at the enterprise level.
    Ms. Duckworth. Thank you. And as you are making these 
shifts and you are moving your resources around, I know we are 
really focused on Active Duty units right now and Active Duty 
facilities, but every one of us have National Guard and Reserve 
units in our districts. How does that affect--you know, how 
does that cascading priorities affect the ability of our 
National Guard and Reserve units to access these facilities, 
and is it affecting their readiness as well?
    General Halverson. Ma'am, the answer is yes in the aspect 
that we track the Guard and Reserve facility modernizations and 
their Q ratings, too, so I work very close with Tim Kadavy and 
Jeff Talley and stuff, and we look holistically, so that helps 
us with our parity of how much we give when we do it from the 
program that I build for the Army and stuff like that.
    So you are exactly right, and I am concerned somewhat for 
those abilities. And so when we lose modernization or we lose 
restoration and modernization, it affects it because it is 
cascaded, and actually, it costs you more when you have to push 
it in from year to year, so that is one of the concerns we have 
within the Guard and Reserve.
    Ms. Duckworth. Do you have any estimate costs, just very 
briefly, on what it would cost, or is there legislation that 
would help you to dispose of unused buildings? You know, I 
worked at the VA [Department of Veterans Affairs] for a while. 
One of the problems that the VA has is they have all these 
buildings, legacy buildings, that have asbestos, that the 
carrying cost is lower than the disposal cost, so they can't 
dispose the building in the short term, but then they are stuck 
with these buildings for an infinite amount of time, and do you 
have any of those estimates? Or is there legislation we can 
help you with here in Congress that will help you dispose of 
some of these buildings?
    Are you responsible, for example, for paying the mitigation 
costs--even if you wanted to transfer a building with known 
asbestos or mold to a civilian entity, you can't do it because 
you are now responsible for that--is there things that we can 
do to help you?
    General Halverson. Ma'am, yes, in the aspect I think we 
need that support. Right now, in demolition, that is one of the 
challenges we have with demolition and stuff, part of my R&M 
[restoration and modernization]. We try to fence demolition as 
much as we can so we can take down old buildings, but it is 
just like what Andrew kind of said, when we have seen at Fort 
Gordon, with the Cyber Center of Excellence and other things, 
we are getting into a lot of this asbestos that would then 
drive the cost and the time it takes because of our ability to 
demo [demolish] or refurbish a building because of the asbestos 
issue.
    It is a reality that we are dealing with from the 1960s now 
that we are up now with--in today's dollars that we are trying 
to work through each of these. But we need to get more into the 
demolition of our capabilities, so that is why we put out an 
order that we cannot build without taking something down. But 
right now, with the fiscal constraints, we do not have enough 
to put into demolition that I need. We still have, as you know, 
units with World War II woods around our posts that we really 
need to get rid of.
    Ms. Duckworth. Thank you.
    I am out of time, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Duckworth.
    We now go to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Thank you for your testimony today. I represent Fort Drum, 
and in March, during a subcommittee hearing on this same topic, 
I brought up the World War II era buildings that currently 
house the NCO [non-commissioned officers] academy. And 
thankfully, in this year's MILCON [military construction], we 
were able to provide the funding for the modernization efforts 
which are critical for the installation I represent.
    But during that hearing, one of the witnesses mentioned 
that 24 percent of the Army's infrastructure is currently in 
poor condition. Can you walk me through the Army's 
prioritization of the facilities that you choose to update and 
modernize and how that decision-making process has been 
affected by the defense sequester?
    General Halverson. Thank you, ma'am. The issue, as you 
know, is that the units build projects. They always have 13--we 
call them 1391s, which is their engineering designs, and they 
feed that into us, that it becomes a fiscal issue, so they are 
all racked and stacked ready. Now it is a priority issue of 
what we want to be able to do.
    We have gone from a historical low, as you all know, of 
military construction, MILCON, that now is--we used to be $4 
billion a year. Now we are into the $1 billion a year. With the 
driving costs, what we are seeing is that we have very, very 
little flexibility to give to some of these needed things at 
the local level because of the higher priorities that they 
need, be it at Cyber Center of Excellence or other issues that 
we have that are going to build capacity for the whole Army as 
a whole.
    We give the garrison commander and his senior commander the 
flexibility--they rack and stack--to be able to do, but the 
things that we have seen is that fiscal constraints that we 
have had--and we are trying to do life, limb, and safety stuff 
now--does not give us much flexibility to do that. And it 
becomes a movement, so we try to be--even sometimes we see the 
migration of sustainment into restoration and modernization, 
which then causes us, you know, the effect that what Andrew was 
saying is that you are not doing your maintenance. Then it 
becomes a multiyear, multimillion dollar issue. So that is the 
challenge, but we are committed to give flexibility to the 
garrison team to be able to provide him to try to take care of 
it, but what we were finding out was there is just not enough 
money to do the projects that are needed like, at Fort Drum, as 
you know, is indoor type stuff because of the snow and all 
those things for facilities for fitness. They need that just 
like they need it in Alaska because the ability--in that cold 
weather, like your record 184 inches, does not give you the 
flexibility to do physical training you need unless you have 
the indoor facilities to do it.
    Ms. Stefanik. Absolutely.
    My next question. I wanted to expand upon a comment that 
two of you made during your opening statements regarding the 
importance of airspace. One of the aspects that makes Fort Drum 
unique is our airspace. We are near the Adirondack Park in 
upstate New York. Can you expand upon why that is so critical 
for maintenance and modernization?
    General Halverson. I will have Pat--Pat, do you want to--
the bottom line is it is a force projection thing, I mean, for 
us, to be able to do it. As you well know, I was amazed at what 
happened at Fort Drum when you just had that big snowstorm, 
where all the things--and the family members of soldiers were 
coming back, and the workforce actually cleared the runway so 
we could land the plane back. It was a 24-hour delay, but what 
they had to do to clear all that stuff was remarkable.
    As you all know, it is not only landing the aircraft but it 
is also all the work to remove the snow causes wear and 
deterioration, and if you don't have the sustainment dollars 
you need to fix the runways and do those things, it causes us 
great things. We have challenges at Fort Campbell, Kentucky, 
and we have had to put a lot of restoration and modernization 
into the airfield at Fort Bragg. But, Pat, if you want to, you 
know, go on any further.
    General White. Thank you, sir.
    Ma'am, so if I understood your question right, it is about 
how does airspace relate to generating readiness. And so there 
are a couple components to it.
    One is the airspace itself, which the military would need 
to control at times to fly fixed-wing or rotary-wing aircraft 
through that airspace. There is the infrastructure that allows 
the airframes to take off and land--the runways, the hangars, 
and the maintenance facilities that are associated with it. 
There are also the crews that are involved in manning the 
towers that allow you to control the airspace and to fix the 
runways and to provide maintenance for those airframes.
    So there are really four components--personnel that are 
involved, so they have to be available. They have to be 
available 24/7. In some cases, as with Fort Drum, we don't have 
them available 24/7. We have them available about 5 days a 
week, sometimes up to 16 hours a day, which limits when a unit 
can train, when it can actually take off and fly an aircraft 
either inside of that airspace or through that airspace.
    There is the equipping piece of it. So if we don't have the 
facilities that are associated with it to get into that 
airspace to lift engines out of, you know, the top of Black 
Hawks, to fix a CH-47 [Chinook] so that the mountain troopers 
at Fort Drum can actually conduct an exercise--airlift, land, 
and assault.
    And then the final piece is the parts and pieces that go 
into fixing those pieces of equipment, the airframes, whether 
it is fixed-wing--we need facilities for that. We need to be 
able to account for them. We need IT infrastructure that allows 
you to transmit from a local database into the Army database 
that says, I need this particular part, I need this part in 3 
days in order to have this aircraft be able to fly.
    And that is probably a really longwinded answer to your 
question, but that is it.
    Ms. Stefanik. No, that is very helpful. And I think it is 
one of the unique aspects of Drum as an installation, is the 
airspace, in terms of how it aids our readiness and training 
capabilities. So thank you.
    Mr. Wittman. Thank you, Ms. Stefanik.
    We will now go back to Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. One of the good 
things, nice things about working on this committee is how 
bipartisan it is, and you are being very generous to give me a 
second question.
    This question actually goes to Colonel Cole.
    And you may not have the answer for this, but it has to do 
with the intersection between energy savings and attempts to 
modernize our garrison commands and cybersecurity.
    So I, not too long ago, was visiting a business that had 
won a contract to provide some energy savings in terms of the 
lights. And I went into this business, into a room, and they 
were very proud to show me this technology they had where they 
promptly were able to dim the lights at a major maneuver 
command headquarters. I won't say which one it is because it is 
classified. Well, it is not classified, but I don't want folks 
to know where it is.
    But I watched as they dimmed the lights and turned them on 
and off on a major roadway at a major base of an Army maneuver 
command in the United States. And I said, ooh, that is great. 
And they were showing how they were doing the energy cost 
savings, they were dimming the lights, you know, all of that. 
And they were very proud of this technology.
    And then I asked the question of the gentleman who was 
operating the computer and said, ``Do you have a security 
clearance?'' And he said, ``No.'' And I said, ``Is this room 
secure?'' ``No.'' ``Who in this business has a security 
clearance?'' Well, the chief engineer has a security clearance, 
but none of the computer programmers, none of the other people 
there did.
    And I let it go, because they were very proud to show me, 
and they were saving a lot of money. It was a great business, 
what they were doing. But I am really deeply concerned that, in 
attempts to do cost savings or modernize, even if it is not 
that aspect, but we are linked into the infrastructure grid for 
major cosmopolitan, major metropolises around this country. And 
this maneuver command is not out in the middle of nowhere. It 
is right next to a major, major city in the United States. And 
I am deeply concerned.
    So what are you doing there in terms of your linkages, your 
tie-in to the civilian infrastructure? And what costs are there 
associated with providing the protection for your installations 
so that you are secure from being able to be hacked through the 
infrastructure network?
    Colonel Cole. Ma'am, thank you for that question.
    At the local level, what I can say is, from my vantage 
point at Fort Riley, we have the benefit of receiving energy at 
a reduced rate. So, from the larger Army's perspective, Fort 
Riley is not at the top of the priority list for some of these 
security initiatives.
    With that being said, we certainly have our standard access 
security parts and pieces in place for securing the locations, 
et cetera. Now, what we are able to do is, as we do find a 
project that may be of appropriate cost savings, we are able to 
elevate that to the enterprise level. Because, ultimately, it 
is well above the installation that has the approval on it. And 
I will defer you to General Halverson, but we do have the 
opportunity to elevate that when we do have a situation where 
we can save monies because of those types of initiatives.
    So, sir.
    General Halverson. Ma'am, great point. And we are, from a 
critical infrastructure perspective, working very closely with 
our, you know, energy partners to be able to ensure that we do 
have mission assurance, just like you were saying, because of 
the abilities for outside folks in the cyber world to be able 
to affect this. So we are working very closely in those 
meetings.
    What you will see now with our energy managers that we have 
at each one of our installations, they almost become, you know, 
very much cyber folks, because you need to know the electronics 
of all this kind of stuff. So it is not just the easy things 
like turning on the lights and everything; it is getting very 
sophisticated.
    But we are working. As a matter of fact, we have met with 
DARPA [Defense Advanced Research Projects Agency] and stuff, 
and there are some testings that we are going to be doing to 
make sure that we are more protected.
    The things that we can control is that we are trying to put 
power stations on our installations for their own security so 
we have uninterrupted power. Because mission assurance, from a 
force projection perspective, which is readiness, we have to do 
that. Because if we have a catastrophic thing in the United 
States, we need to be able to be mission assured to project 
power or to sustain that capability that we need, working with 
the communities.
    But I appreciate that question.
    Ms. Duckworth. In my remaining 12 seconds, I would like to 
ask if you could get back to us with perhaps a cost estimate of 
what you think the escalating costs are going to be into the 
future, as now, you know, cyber is suddenly part of your 
operating costs, and it would be nice to know what you need.
    General Halverson. Yes, ma'am. Thank you.
    [The information referred to can be found in the Appendix 
on page 62.]
    Ms. Duckworth. Okay.
    Mr. Wittman. Very good. Thank you, Ms. Duckworth.
    And I would like to thank General Halverson, General White, 
and Colonel Cole. Thank you so much for joining us today.
    And we are going to take a few moments to switch panels and 
ask our Marine Corps contingent to come up. So we will do that 
and begin the next panel in just a few minutes.
    Thank you.
    General Halverson. Thank you for your time, sir.
    Mr. Wittman. Ladies and gentlemen, from our Marine Corps 
today, we have with us Major General Charles L. Hudson, U.S. 
Marine Corps, Commander, Marine Corps Installation Command, and 
Assistant Deputy Commandant, Installations and Logistics 
Department. We also have with us Major General Brian D. 
Beaudreault, U.S. Marine Corps, Commanding General, 2nd Marine 
Division; and Colonel Chris Pappas, U.S. Marine Corps, 
Commander, Marine Corps Air Station Cherry Point, which we 
recently had an opportunity to visit.
    And, General Hudson, I understand you would like to make an 
opening statement, and we would ask that you do that within the 
5-minute realm. And I want you to know that all the panel 
members have a copy of your remarks, and your remarks are going 
to be entered into the record.
    So, General Hudson, to you.

STATEMENT OF MAJGEN CHARLES L. HUDSON, USMC, COMMANDER, MARINE 
   CORPS INSTALLATIONS COMMAND, ASSISTANT DEPUTY COMMANDANT, 
  INSTALLATIONS AND LOGISTICS; ACCOMPANIED BY MAJGEN BRIAN D. 
BEAUDREAULT, USMC, COMMANDING GENERAL, 2ND MARINE DIVISION, AND 
 COL CHRIS PAPPAS, JR., USMC, COMMANDING OFFICER, MARINE CORPS 
                    AIR STATION CHERRY POINT

    General Hudson. Mr. Chairman, Ranking Member Bordallo, and 
other distinguished members of the committee, on behalf of the 
Commandant, General Neller, and the thousands of marines, 
sailors, our dedicated civilian workforce, and our family 
members, thank you for your continued support to the defense of 
our Nation and to the United States Marine Corps.
    As you have indicated, sir, I have General Brian 
Beaudreault with me this morning, Colonel Chris Pappas. And, 
although not sitting at this panel, sir, I would like to 
introduce my sergeant major, my senior enlisted leader, 
Sergeant Major Tony Cruz is with us here today, as well, sir.
    The Marine Corps is the Nation's expeditionary force in 
readiness. To that end, Marines serve forward to shape events, 
manage instability, project influence, respond to crises, and, 
when necessary, serve as the Nation's initial response force. 
Our role as America's 911 force informs how we man, train, and 
equip our force. It also drives how we prioritize and allocate 
the resources provided by Congress.
    Within the Marine Corps, we look at readiness through five 
pillars: high-quality people, unit readiness, the capacity to 
meet combatant commanders' requirements, infrastructure 
sustainment, and equipment modernization. These pillars 
represent the operational and foundation components of 
readiness across the Marine Corps.
    Marine Corps bases and air stations provide a platform from 
which to deploy and, in the case of several of our 
installations in the Pacific, directly employ for either combat 
operations or humanitarian assistance disaster relief 
operations. These bases and air stations also serve as 
platforms from which marines conduct realistic and relevant 
training that is necessary for them to accomplish assigned 
missions and then return home safely to their families. And, 
finally, our bases and air stations provide a critical support 
system to our families when those marines and our sailors are 
deployed forward.
    General Dunford, as the Commandant, has previously 
testified that the Marine Corps' first priority is to reinforce 
the near-term readiness capabilities needed by our marines who 
are currently deployed or about to deploy. To accomplish that 
priority, the Marine Corps will accept risk in our 
infrastructure accounts.
    Hard decisions, difficult decisions will be required to be 
made. We will be required to prioritize the maintenance of 
nearly 15,000 buildings, range complexes, barracks, and 
airfields to ensure near-term readiness. Robust investments to 
repair, replace, or consolidate poor facilities will need to be 
deferred.
    Long-term underfunding of facilities and sustainment 
requirements will result in a gradual degradation of our 
infrastructure and create a bow wave of increased long-term 
costs to return these assets to proper conditions.
    With an eye on the future and the support of Congress, we 
have been able to expand the physical size of our largest and 
most capable training range at Twentynine Palms, California. 
This expansion will allow the Marine Corps to exercise a three-
maneuver battalion, Marine expeditionary brigade, and a live-
fire training environment.
    Also, with your support, we are presently expanding the 
Townsend Bombing Range in Georgia, giving us the ability to 
train with precision-guided munitions here on the East Coast, 
which is of extreme importance as we field the F-35.
    However, in recognition of the currently constrained fiscal 
climate, the Marine Corps has been required to sacrifice 
further range modernization for the sustainment and 
recapitalization of existing capacities and capabilities. This 
means that we are unable to adequately address the required 
training enhancements associated with new and emerging 
operational requirements.
    Your marines are the Nation's expeditionary force in 
readiness. We focus our resources on maintaining the readiness 
of our forward-deployed marines and those about to deploy. 
Although our investment in future modernization and our 
infrastructure are less than what we believe is required, we 
will remain diligent stewards of the assets provided to us.
    Thank you for your time and the opportunity to speak on 
behalf of the marines and sailors and our family members and 
civilian employees. I look forward to your questions.
    [The joint prepared statement of General Hudson, General 
Beaudreault, and Colonel Pappas can be found in the Appendix on 
page 48.]
    Mr. Wittman. Very good. General Hudson, thank you so much. 
Thanks for that great overview, and we appreciate deeply what 
the Marine Corps does for our Nation, for what your marines do 
in accomplishing the mission in the Marine Corps.
    In looking at the total scope of what we are dealing with 
in the past several years, you have seen consecutive-year 
reductions in funding that is below the targeted infrastructure 
investment goals and also reductions to your base operations 
support accounts.
    In that realm, how have you prioritized funding in terms of 
your facility investments and services supported within the 
Marine Corps? And then what categories within the facilities--
categories or the elements within that and the types of 
installation services are most important to the Marine Corps?
    So kind of give us your prioritization, give us the realm 
of what you have had to do to make those priority decisions 
within the scenario we have seen in the last couple years in 
reduction of dollars to go to those areas.
    General Hudson. Sir, clearly, in order to maintain the 
readiness required to meet our day-to-day commitments, we have 
accepted risk in our infrastructure accounts, sustainment 
accounts, and the like. And, clearly, it is something that we 
will need to address in the future.
    Currently, our institution's focus is on supporting the 
focus to the Pacific initiative and actions related to our 
aviation campaign plan actions, introduction of new weapons 
platforms, the F-35, and MV-22 capabilities around the globe. 
So, within our military construction budgets, those are our 
main efforts.
    Within our sustainment accounts, we have had to defer many, 
many requirements, many capabilities, either within FSRM 
[Facilities, Sustainment, Restoration, and Modernization] or 
within MILCON. But the primary focus, of course, is to prepare 
for our forces to deploy, now or tomorrow, and we made an 
institutional decision to first defer sustainment requirements 
till later on.
    Of course, that will result in a gradual degradation of our 
capability, and, over the long term, that will cause the costs 
to increase dramatically. We expect that, as this goes to the 
right, as the requirements continue to push to the right, as I 
said in my statement, we will see a bow wave. And, within our 
sustainment dollars, we are projecting within about the next 5 
years, we are projecting about a $1 billion bow wave of 
requirements that we are not able to meet today----
    Mr. Wittman. Yeah.
    General Hudson [continuing]. Based upon pressure on the top 
line or reduced funding levels writ large.
    Mr. Wittman. Very good. Thank you, General Hudson.
    Colonel Pappas, give us your perspective on how corporate 
Marine Corps infrastructure and installation support decisions 
and the guidance affect your ability to provide mission support 
for operations and training there at the Marine Corps Air 
Station Cherry Point.
    Colonel Pappas. Thank you, Chairman. That is a phenomenal 
question here.
    We right now focus our efforts, as an air station 
commander, on the air station itself, the airfield itself, on 
air traffic control facilities, on our range facilities, to 
make sure that we provide a capability for all of our operating 
forces.
    The challenge that we face is, when you look at an air 
station like Cherry Point that has been around since 1942, I 
still have facilities around from when the airfield opened in 
1942, coming close to 75 years old at this point. And so, when 
we look in terms of across the airfield, there is a great 
number of facilities that are getting old and are in need of 
repair that don't meet the cut line currently for both 
modernization and for recapitalization across current military 
construction. And so we live with those types of facilities.
    And those are just the challenges that we have to face as 
the Marine Corps looks to prioritize its very scarce resources.
    Mr. Wittman. Thank you.
    General Beaudreault, there are obviously risks that are 
associated with infrastructure and installation support 
reductions, and, obviously, there are impacts. Give us your 
perspective on how those impacts affect your ability to 
maintain full-spectrum readiness across your different units. 
And how does the recent 2-year budget deal affect that? Give us 
that perspective.
    And then if you would also look out 10 years into the 
future, assuming that under the best-case scenario we would be 
level-funded past the end of this 2-year budget deal, which 
averages the defense budget at about $610 billion, give us your 
projection there.
    And also a scenario where, if at the end of this 2 years we 
drop back to a sequester mode, if you would kind of give me 
your perspective there about what you see with that and what 
happens with your infrastructure and installation support 
dollars as they have occurred recently and where that is with 
full-spectrum readiness.
    General Beaudreault. Thank you, Chairman.
    I can address that question, sir, from really two 
standpoints--first, training readiness to meet our three 
standing global deployment requirements, as General Hudson 
referred to.
    Our number-one priority is to meet the demands of the 
forward-deployed forces. I have three requirements I need to 
meet each and every day. And that is to send marines, trained 
and ready, to Okinawa on unit deployment; our special purpose 
Marine air-ground task force [MAGTF] that is in Moron, Spain, 
and throughout Europe; and, thirdly, our Marine expeditionary 
units [MEUs]. We provide the battalion landing teams for those 
forward-deployed MEUs.
    I also have two domestic requirements that we stand each 
and every day. We have a CONUS [contiguous United States]-based 
alert force, and I also have forces on stand-by intermittently 
between the West Coast and the East Coast, shares the 
responsibility of having forces ready to go in the SOUTHCOM 
[Southern Command] AOR [area of responsibility] if we need to 
forward-deploy from here.
    So we can't accept risk in meeting any of our combatant 
commander requirements. We have to go out ready to fight and 
operate across the full range of military operations. Pressure 
on the top line for that budget impacts our ability to train 
locally at Camp Lejeune, so that requires me to often go off 
installation, places like Twentynine Palms, places likes Fort 
Stewart, Fort Bragg, [Fort] A.P. Hill, Fort Pickett, where I 
can ensure that the force that I am deploying forward can meet 
every one of its demands.
    So we have an area for range maintenance, much like General 
Halverson and General White talked about. We need to maintain 
the targetry. We need to keep the ranges, the berms, the roads, 
the firebreaks. There is a cost to do business just for the 
ranges as they exist. There is pressure on modernization of 
current ranges to instrument those ranges, if need be.
    And then there is the future of range development, things 
that don't exist today that we need--live-fire combat towns. We 
have shooting houses, but we don't have a town where we can put 
a large-scale unit in and prepare to fight in places like we 
have done in the past in Fallujah and others. We recognize the 
urbanization that is occurring in the future operating 
environment, and we need to have the money in place to build a 
facility that allows us to get after that challenge locally. We 
can do it on the West Coast. They have done some out at 
Twentynine Palms, and we thank you for the money that allowed 
us to do that.
    Secondly, the way that I can look at it is the quality-of-
life and retention issues that go with barracks that become 
dilapidated over time.
    I have 68 barracks in the 2nd Marine Division that my 
marines live in, 28 of which have been renovated or were newly 
constructed. And, again, thank you for the new construction on 
that.
    Forty of those remain. Under the current funding line, it 
will take until 2034 to renovate the remainder of those 
barracks. Any further pressure on the top line and any delay to 
that just continues to deteriorate and gets to the end result 
that General Hudson talked about
    Mr. Wittman. Thank you, General.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I would like to also welcome General Hudson, General 
Beaudreault, and Colonel Pappas.
    Before I begin my questions, I just have to take this 
opportunity to say that Guam is anxiously awaiting the arrival 
of the marines from Okinawa. And, as the people of Guam say, 
you liberated us during World War II, so this will be a 
homecoming.
    So, Mr. Chairman, I have a couple of questions here.
    First, in your written testimony, you noted that, due to 
the BCA, you have, and I quote, ``had to make some difficult 
decisions to defer modernizing some of our training facilities 
to ensure that we could sustain the capabilities we have 
already fielded,'' unquote.
    Now, can you please describe some of those, and I quote 
again, ``difficult decisions'' and what impacts they have or 
have had on training and readiness?
    I guess General Hudson.
    General Hudson. Ma'am, if I may start on that, and then I 
can certainly turn to Colonel Pappas to talk about aviation 
range capabilities, aviation training venues, and General 
Beaudreault, as well, on ground side, as well.
    But, again, clearly, based upon the requirements that we 
have to prepare trained, combat-ready marines to deploy at a 
moment's notice, the requirement for training venues, not just 
ranges but venues, to include simulation centers and emerging 
combat trainers, emerging infantry trainers, is a valid 
requirement to ensure those marines are prepared to go into 
harm's way.
    Oftentimes, when you talk about the repair of those type 
facilities versus a barracks--and I just visited one of General 
Beaudreault's barracks about a month ago down at Camp Lejeune, 
North Carolina--that there is no way I would put my son or 
daughter to live into a barracks in that condition. As a matter 
of fact, that battalion commander made the decision that he 
wasn't going to put any of his marines in there.
    So it is a balance of competing requirements. It is a 
balance between ensuring that the marine who is going to get on 
a ship or get on an aircraft to deploy forward into harm's way 
is ready to go or to ensure that they have an adequate facility 
to live in or to work out of or, for that matter, an adequate 
chow hall that is sufficient to meet their daily requirements.
    So it is, again, very, very competing requirements, and so 
those are the difficult decisions. It is the right balance 
about combat-readiness versus some of those life support, life, 
health, and safety-type issues and challenges and requirements 
that we need to meet just in order to set the foundational 
conditions for them to go train and be prepared to deploy.
    Ms. Bordallo. I understand.
    Are there any further comments?
    I have another question. I asked this of the Army, but I 
would like to hear your reply on this, as well.
    At what level are the connections between the training 
requirements of a unit and the ability of an installation to 
support those training requirements? And how often are they 
reevaluated? In other words, at what level are the decisions 
impacting military infrastructure and installation support 
being coordinated with those in charge of training and 
operational requirements?
    Whoever would like----
    General Hudson. Ma'am, if I may, I will start with that.
    Clearly, we report readiness across all units within the 
Marine Corps, regardless of what unit. And so my installations 
support their readiness based upon mission-essential tasks that 
they have to execute, whether it is an actual Marine Corps 
base, a ground base, or whether it is a Marine Corps air 
station who is being required to support aviation operations.
    And so, on a quarterly basis, those commanders inform me, 
my commanders inform me via our readiness reporting system of 
their red, green, or yellow capability to support the members 
of the Marine expeditionary forces [MEF] they are supporting. 
And we are in a supporting relationship with our MEF 
commanders, with our division commanders, with our Marine air-
ground commanders. And so, on a quarterly basis, through the 
formal readiness reporting system, we are able to determine how 
well we are supporting them.
    I had the opportunity to spend 2 years at Marine Corps 
Installations Pacific in Okinawa, headquartered in Okinawa, had 
the opportunity to span installations from Hawaii west. And so, 
very frequently, I would sit down with my supportive MEF 
commander, saying, ``Sir, here is what my commanders are 
telling me that they are able to do for your marines, for your 
commanders. Does that synchronize with what you are seeing, 
with what you are hearing?''
    And then, based upon that, then you are able to allocate 
resources, either manpower or fiscal, to weight the main effort 
at that particular point in time.
    Ms. Bordallo. Thank you.
    Anybody else who would like to comment?
    Yes, General.
    General Beaudreault. Ma'am, the only thing I would add to 
that is that, in October, unbeknownst that this hearing would 
occur, I sat down with my commanders, and we looked at our 
training gaps, what are the major training gaps that we have in 
the 2nd Marine Division. And the number-one thing that came out 
had to do with range modernization, range development.
    So Marine Corps Installations East Brigadier General Tom 
Weidley and I sat down shortly thereafter and were trying to 
work out a plan of how we can get there, understanding the gaps 
we have, the resources available in getting those hard choices 
on the table for General Neller to have to make on how we 
allocate that dwindling amount of money.
    Ms. Bordallo. Thank you.
    And Colonel.
    Colonel Pappas. Thank you, Congresswoman.
    I am fortunate enough that I am actually collocated with my 
major support command in the same facility. So we have a very 
close relationship and understanding of what the mission 
priorities and training priorities are on a regular basis.
    Across the Marine Corps and aviation, we have training and 
readiness manuals that dictate what our standards are. And we 
report against those--an operational commander report on a 
monthly basis. And I understand where their concerns are from 
frequent meetings. We report on a quarterly basis, as General 
Hudson mentioned.
    And what I would like to comment on is that most of this is 
on a very near-term focus for current readiness. One of our 
challenges now in regard to range modernization in our airspace 
is new platforms bring a great deal of new capabilities. And, 
quite frankly, they are stressing our capability of our ranges 
to meet those requirements.
    For example, with the MV-22, we now fly twice as far and 
twice as fast as the legacy helicopters. The Joint Strike 
Fighter is going to have new weapons systems that are going to 
dwarf the capabilities--that currently dwarf the capabilities 
of legacy aircraft today. And they are putting a great deal of 
pressure upon our range space that were perfectly acceptable in 
legacy airframes, and how we are going to deal with that in the 
future.
    So that is a bigger challenge that I think we are going to 
have to look at to meet future training challenges.
    Ms. Bordallo. Thank you very much, Colonel.
    And thank you. I yield back, Mr. Chairman. Thank you for 
giving me extra time.
    Mr. Wittman. Absolutely. Absolutely, Ms. Bordallo.
    I do have one final question, and I will direct it to all 
of our panel members.
    A couple of things. We have seen, leading up to where we 
are today, a sequence of continuing resolutions. And, 
obviously, as you all are doing infrastructure planning, trying 
to set a course to meet those needs, I want to get your 
perspective on how continuing resolutions affect your ability 
to get to where you need to be.
    And then, secondly, on your plan to restore full-spectrum 
readiness, how will the Bipartisan Budget Act of 2015 affect 
that? And we all know that our service branches are all faced 
with getting full-spectrum readiness back, unfortunately, a 
number of years in the future. Will the Marine Corps' plan be 
able to stay on track with the current budget deal that has 
been reached for the next 2 years?
    So I will open it up for any of you all to give me your 
perspective.
    General Hudson. Mr. Chairman, if I may, I will start, and I 
will start with a response relative to the continuing 
resolutions.
    Clearly, the instability and the unpredictability of a 
budget causes challenges across the board. And it is not only 
challenges relative to the execution of military construction 
projects--no new starts--or the ability to execute the 
sustainment and restoration and modernization programs.
    We have gone to great lengths over the last 3 years inside 
the Marine Corps, working with Naval Facilities Engineering 
Command, to shift what has historically been most of our 
projects in the fourth quarter to where there is the 25 percent 
in the first quarter, 50 percent in the second quarter, 25 
percent in the third quarter, where we have them designed and 
ready to execute. The challenge, of course, is that, based upon 
when the receipt of funds occurs, it could be at any time 
during the course of the fiscal year.
    So, both from a design work--although designs are primarily 
done--from an execution perspective, it makes it extremely 
difficult for the Naval Facilities Engineering Command to 
actually execute the contracts to actually, you know, start 
horizontal/vertical construction. So that is a challenge, as 
well.
    Not to mention the fact of the uncertainty on our 
workforce. And it is not just marines in uniform. It is our 
civilian employees, and it is our contracted workforce, as 
well, because we have contracting capabilities. Many of them 
work in chow halls or dining facilities day in and day out. But 
it is also the family members, as well. Extremely concerned 
about what is going to happen. If you are a civilian employee, 
am I going to have to go home? Am I not going to get a 
paycheck? And, to a lesser extent, to the Active Component 
uniformed personnel, as well.
    So, as you take a look at infrastructure development, 
master plan development, and as you take a concerted effort to 
plan the future of a base or an air station, it takes a couple 
years to get the master plan right. And so you have the vision 
for what you want to occur, and you have an associated timeline 
with that, a campaign plan to actually execute the vision. A 
hiccup in the stability of the receipt of funds causes 
challenges and obviously defers the program, as well.
    Mr. Wittman. Very good.
    Gentlemen, any other perspectives on how CRs affect you?
    Colonel Pappas.
    Colonel Pappas. Thank you, Chairman. I would offer another 
piece, is that one thing it does for us also, it buys us lost 
time. So even if I get the money later on in the year, what I 
have lost is the time to execute my mission, and I can't get 
the time back. And that is one of the biggest concerns that I 
have as an installation commander.
    For me, for having a base master plan, it requires both the 
plan, it requires sustainable funding. It also requires the 
people and the trained workforce to be able to execute it. And 
with the top-line budget pressures, all of those have been 
challenged. When we don't gain the military construction funds, 
it further pressurizes our modernization and sustainment 
accounts. If we don't get those, then it also, for me 
personally, impacts my local repair accounts.
    And just as an example, Mr. Chairman, over the past 2 
years, due to our budget pressures, we now have a 4-year 
backlog on routine maintenance. None of this is life-and-limb, 
it is all very mundane stuff, but it just gives you the 
challenge of what the workforce is going through on a weekly 
basis to prioritize very routine maintenance actions that we 
are deferring.
    And to echo some of the comments from the Army earlier, 
what it is going to do is it basically makes me, instead of 
being proactive and having a solid plan, it makes me very much 
reactive in terms of how I am doing my job on a day-to-day 
basis.
    Mr. Wittman. Very good. Thank you.
    General Hudson, let me just get you to elaborate on the 
Bipartisan Budget Agreement of 2015. Will that allow the Marine 
Corps to stay on track with restoring full-spectrum readiness?
    I know all the service branches have a plan as to how they 
will restore that. Obviously, more years out in the future than 
we would like to have. But will the Marine Corps be able to 
stay on track or even move things to the left in that timeframe 
with this new budget agreement that gives you certainty, at 
least over the next couple of years?
    General Hudson. Mr. Chairman, it will certainly assist with 
the stability of our infrastructure capabilities. And, as 
previously indicated, of course, the focus of readiness is to 
ensure our marines are able to get out, and rightly so. And so 
our infrastructure accounts have kind of taken a backseat to 
that. But we have a solid game plan to execute the requirements 
as funds are available.
    And so the challenge, of course, up to this point, is we 
have had to continue to push projects, both military 
construction and sustainment requirements, continually to the 
right. But we have those teed up, ready to go. In most 
situations, the designs for projects are ready, they are on the 
shelf. So it is a matter of, when the funds are received, we 
can take them off and we can execute them.
    So, certainly, it will go a long ways towards alleviating 
some of the pressures that we see both at the enterprise level, 
at the institutional level, but also at the local level, as 
well.
    Mr. Wittman. Very good. Thank you.
    Any other comments, gentlemen?
    General Beaudreault.
    General Beaudreault. Sir, down at the division level, it is 
really second- and third-order impacts of decisions that are 
made by Programs and Resources and the Commandant and others.
    But I will say that our near-term readiness, I remain 
optimistic that we will be adequately funded to generate T-1 
forces going forward in support of the combatant commander 
requirements.\2\
---------------------------------------------------------------------------
    \2\ T-1 refers to the SORTS [Status of Resources and Training 
System] value meaning fully trained for mission requirements.
---------------------------------------------------------------------------
    What we see are maybe some indirect effects when there is a 
cutback to installations and I have to send, say, 147 marines 
to augment the base MPs [military police] that aren't out 
training with the rifle companies getting ready to go forward.
    Mr. Wittman. Got you.
    General Beaudreault. Again, like General Halverson 
mentioned, less simulator time because of contractor cutbacks. 
And now we are not 24/7 on our simulation systems.
    So those are kind of the second-order effects we see, but--
--
    Mr. Wittman. Sure.
    General Beaudreault [continuing]. Near-term readiness, I 
feel confident we will continue to generate what the Nation 
needs.
    Mr. Wittman. Very good.
    Well, gentlemen, thank you.
    Ms. Bordallo, any other question?
    Ms. Bordallo. I have nothing.
    Mr. Wittman. All right. Very good.
    Well, gentlemen, thanks so much for joining us today. 
Thanks for your perspective on what we need to do to continue 
to help you to restore readiness and make sure that our 
installation support and infrastructure is on track to where it 
needs to be.
    We appreciate the great job that you do with the dollars 
that we give you. We know the Marines are very austere in many 
different ways and take a dollar and stretch it to the maximum 
extent possible. But, as General Amos once said, he said, ``We 
are at a point where we are going to do less with less.'' And 
we don't want to put you in that particular position. You all 
have done a great job in doing more with less, but I do think, 
with what we have asked you to do and extend things out, we 
don't want to be in a position where you can't do the things 
that you need to do for our marines.
    So, again, thank you all for your service. Please give our 
best to our marines that are there in your units and forward-
deployed. Thank them for the great job that they do for our 
Nation. And we look forward to seeing them as we all get around 
to visit those Marine Corps facilities across CONUS and OCONUS 
[outside the contiguous United States] too. So thanks again.
    And we are adjourned.
    [Whereupon, at 9:34 a.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                            December 3, 2015
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 3, 2015

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

      
         
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            December 3, 2015

=======================================================================

      

            RESPONSE TO QUESTIONS SUBMITTED BY MRS. HARTZLER

    General Halverson. Many sheltering and notification improvements 
occurred at Fort Riley since the November 2005 tornado. These include 
the installation of 2,289 storm shelters in on-post housing. Corvias, 
our privatized housing partner, constructs storm rated shelters in all 
new housing units and retrofits units being renovated. Currently, 76.7% 
of all housing units have shelters (or basements). We relocated 
exterior concrete storm shelters from demolished relocatable buildings 
sites to twenty-one selected higher-use Range/Training Area facilities 
and Fort Riley access control points. There are now interior storm 
rated shelters in all Child Development Centers and hardened gyms in 
the new Fort Riley Middle School and two new Elementary Schools. Our 
Soldier Readiness Processing Center is a historic facility with 
hardened restrooms for shelter. Seven 24/7 community shelter facilities 
with signage direct pedestrians and motorists to these facilities if 
needed.
    Fort Riley improved the ability to notify Soldiers, Families, 
Civilians, and visitors with the installation of two additional tornado 
sirens addressing the outdoor recreational coverage gaps. This provides 
a total of nineteen tornado sirens. We also installed thirty-one 
additional Giant Voice towers for a total of forty-eight which provide 
robust coverage to the entire cantonment and housing area footprint. 
Upgrades to our network-based desktop alert system (AtHoc Connect) 
increased our coverage from 3,400 to 22,670 accounts. We added text 
message alert, e-mail and telephonic notification capabilities with 
over 7,350 subscribers. Finally, Fort Riley informs new Soldiers and 
Family members on how to plan for and deal with emergencies with a 
robust tornado/severe weather awareness campaign in coordination with 
Public Affairs Office, local media and the National Weather Service.   
[See page 10.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. O'ROURKE
    General Halverson. Over the past several years, the Army's Total 
Obligation Authority, was insufficient to allow the Army to fully fund 
its training strategy to achieve desired Decisive Action proficiency 
and strategic depth. Overall, the Army only funded approximately 85% of 
the total requirement. Interestingly, the leading indicator of an 
underfunded training strategy is not an initial drop in training 
readiness, but rather it first manifests itself in terms of diminished 
equipment readiness. Commanders continue to apply their limited 
resources to executing key training events while conserving funding by 
deferring maintenance on equipment. FORSCOM is clearly seeing this with 
over $300M in deferred maintenance and repair parts orders.
    Should the Army be able to recoup the approximately $500M currently 
spent on excess infrastructure capacity and reapply all of it to 
readiness, it could, as an example, help eliminate the existing gap 
between current funding levels and our Training Strategy. This would 
allow Commanders to plan and execute training without deferring 
maintenance on their equipment to generate funds for future training 
events. Further, the $500M could, as an example, help the Army to 
address Reserve Component pay and allowance shortfalls that impede 
their ability to achieve the training readiness we desire in those 
Components.   [See page 13.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT
    General Halverson. The Army does not have empirical data to assess 
the impact of the Davis-Bacon Act on military construction. There is 
speculation that the absence of the Act could lead to cost savings 
through lower wage and benefit payments and administrative costs. One 
of many unknowns is whether, in the absence of Davis-Bacon Act 
requirements, the Government would see lower-cost, equally-qualified 
tradesmen, or less-qualified tradesmen, being hired for projects due to 
wages lower than the prevailing rate.
    In 2010, the GAO examined the effect of applying the Davis-Bacon 
Act to a number of American Recovery and Reinvestment Act (ARRA) funded 
Federal programs, including some not previously subject to the Davis-
Bacon Act. The findings of the study vary. For example, the study 
suggested that Davis-Bacon requirements impact wages and administrative 
costs for small construction projects in rural areas more than major 
construction projects in large metropolitan areas.   [See page 15.]
    General Halverson. Enhanced-use lease is a term that commonly 
refers to long-term leasing of government land for private sector 
development and use. The military departments' authority to lease real 
and personal property is codified at Section 2667 of Title 10 United 
States Code. Leasing is one of many useful tools for managing the Army 
real property portfolio. If there is no current or anticipated military 
requirement for a certain property, it is processed for disposal as 
excess property rather than leased. However, when property is not 
excess but is not needed for a period of time, leasing can be an 
efficient and economic means of managing that real property asset. It 
can provide valuable revenue, defray Army costs to maintain the 
property, and can enable private sector uses of the property that 
complement Army missions. Revenue from leasing is generally available 
for construction and maintenance of Army facilities and similar 
expenses. However, leasing property is not appropriate or prudent in 
every case. In some cases, especially with property of relatively low 
market value, costs associated with planning and implementing a lease 
may not be recovered. Sometimes private sector uses of leased property 
might be incompatible with adjacent Army activities, or could preclude 
potential government use of the subject property. The Army takes these 
and other factors into consideration when deciding whether leasing is a 
prudent course of action in any given case.   [See page 15.]
    Colonel Cole. Fort Riley installed skylights in building 8100, our 
Logistics Readiness Center's Maintenance Facility. Safety issues on 
cloudy days mandated that mechanically-controlled lights remain. Fort 
Riley installed photo cells in addition to motion sensors to control 
the mechanical lights. When the skylights provide adequate lighting, 
the mechanical lights are off.   [See page 14.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MS. DUCKWORTH
    General Halverson. The Army is focused on addressing cybersecurity 
for industrial control systems related to real property. Processes are 
in place to properly authorize systems to operate on the Army network. 
We are developing a new holistic program to assess and identify the 
threats to ensure appropriate protective measures are in place for 
systems.
    As the program develops, we expect to see some increases in 
operating costs to maintain the assessment and authorization process 
for these systems. The costs associated with this program are 
undetermined at this time.   [See page 21.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 3, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. What specific examples can you provide of facility 
conditions affecting the readiness of installations to carry out their 
assigned missions? To what extent have any reported issues been 
addressed? How quickly were any issues able to be addressed?
    General Halverson. Current budget caps forced the Army to focus its 
scarce resources on training and modernization, and assume more risk at 
its installations. The result is a limited pool of available funds to 
execute critical construction and restoration and modernization 
projects.
    An example of facility conditions affecting the readiness of 
installations is modernizing delays to Fort Hood's Tactical Equipment 
Maintenance Facilities. Fort Hood's motor pools were ``state of the 
art'' in the mid-1980s. Currently, the day-to-day impact on readiness 
is visible as Soldiers perform maintenance outdoors that should be 
performed inside a building because the facility doors are not wide 
enough to accommodate the Stryker. Further, the overhead lifts are not 
sufficient to safely handle the heavy powertrain components.
    A second example of inadequate Restoration and Modernization 
funding is the deteriorating condition of the Libby Army Airfield and 
related taxiways at Fort Huachuca, Arizona. Repair and replacement 
costs are projected at $20 million. Reduced manpower for airfield 
operations negatively impacts TRADOC Unmanned Aerial Systems (Grey 
Eagle) Training, wildland fire support operations, Military 
Intelligence Battalion Special Electronics Mission Aircraft training, 
and other supported aviation missions. Other agencies that use the 
Libby Army Airfield include the U.S. Forestry Service, Department of 
Homeland Security Customs & Border Protection, and U.S. Air Force.
    Readiness-related facility condition issues are addressed 
immediately at the local level when resources are available. If 
resources are not readily available, the requirements are addressed 
through the respective reporting, planning and programming venues. 
Critical funding issues, validated by HQDA, were generally resolved 
within 60-90 days.
    Mr. Wittman. To what extent do the reported readiness levels of 
installations take into consideration the condition of their 
facilities? Are there other metrics or data points used to assess the 
effect of facility condition on readiness? How have the services 
attempted to quantify the risks they are taking by perennially reducing 
their investments in base support services and infrastructure, if at 
all?
    General Halverson. Facility condition is a principal factor for 
installation readiness. The Army uses its Installation Status Report--
Infrastructure, or ISR-I program, to provide a comprehensive statement 
of a reporting location's facilities and infrastructure status. It does 
this by determining the quality of facilities compared to existing Army 
standards in nine Facility Classes. The Quality, or Q-Rating, indicates 
the physical condition of assets. The Army Q-ratings are compatible 
with and correspond to prescribed DOD criteria.
    ISR-I also uses Mission Support Functional Capability Ratings, or 
F-Ratings. The F-Rating indicates whether the existing configuration of 
an asset impairs the tenants' capability to support their missions.
    Both data points are required to be reported to the Office of the 
Secretary of Defense on an annual basis as part of the Army's Real 
Property Inventory submission. For example, facilities with an F2 
rating are those facilities that meet the minimum functional use, but 
are not the optimal design or size. Such facilities are still mission 
capable, but could be modernized to operate more effectively and 
efficiently. This includes operations and training, maintenance and 
mobility infrastructure. For example, a well maintained building with 
the wrong layout or configuration to support the mission could have a 
Q1 quality rating but a F3 or F4 functional rating.
    The Army generates these ratings for installations across all 
components of the Army. The ISR-I results are used in a number of 
readiness reporting platforms such as the Defense Readiness Reporting 
System--Army, the Army Strategic Readiness Assessment, and the 
Strategic Readiness Update, to provide Senior Army Leadership with 
actionable data as it relates to facility condition and readiness. Risk 
considerations are integrated in the base support services and 
infrastructure support assessment and ratings process. Risks are 
quantified through applied performance, facility, and mission support 
metrics.
    Mr. Wittman. What steps, if any, are installations taking to reduce 
the risk that facility conditions will negatively affect their 
readiness to carry out assigned missions? For example, are 
installations dedicating more sustainment and recapitalization funding 
to higher priority facilities and reducing or delaying funding for 
lower priority facilities? How do the installations determine which 
facilities are higher priority for purposes of funding needed 
sustainment? How effective have any risk-reduction actions been? What 
long-term effects, if any, are expected as a result of these actions?
    General Halverson. Commanders must balance infrastructure readiness 
against risk. Installations prioritize sustainment, restoration and 
modernization requirements locally based on not only current facility 
conditions, but also on impacts to readiness and training. For example, 
many installations take risk on horizontal infrastructure, such as 
roads and utility systems, to preserve capabilities that have a more 
direct impact on their operations. Specific types of facilities vary 
from installation to installation based on their primary mission. For 
example, hangers and airfield pavements are a priority at Fort Rucker 
Alabama as the Army's Aviation Center of Excellence, while classrooms 
and training ranges are critical at installations that conduct Basic 
Combat Training.
    Determining which facilities receive a higher priority for 
sustainment funding involves a collaborative, informed approach. The 
installation's Garrison and Senior Commanders work together to 
determine local sustainment priorities. The Garrison prioritizes 
routine sustainment based on established preventative maintenance tasks 
necessary to preserve the full life expectancy of facilities. The 
Garrison prioritizes larger sustainment projects based on the facility 
condition of enduring infrastructure, inspected failing components, and 
mission impact.
    Our risk-reduction measures are or were partially successful in 
mitigating impacts to mission by focusing on critical Army 
requirements. However, reduced Sustainment, Restoration and 
Modernization funding causes long-term impacts. Generally, long-term 
impacts of these actions are increased ``penalty costs,'' including 
increased restoration costs due to degradation, or increased MILCON 
requirements which occur when cost-benefits no longer support restoring 
or modernizing a facility.
    Mr. Wittman. What progress has the Army made in implementing the 
2013 and 2014 OSD policy memorandums regarding the standardization of 
facility condition assessments and use of the Facility Sustainment 
Model? Do you expect to meet the timelines laid out in those 
memorandums? Have your efforts to implement to date affected fiscal 
year 2016 and/or future budgets?
    General Halverson. Currently, the Army uses facility condition 
assessments aligned with the OSD policy. The Army fully incorporated 
and actively uses the Facility Sustainment Model in its sustainment 
requirements programming. The Army manages 90% of its railroads with 
the RAILER Sustainment Management System (SMS) and 60% of its pavement 
inventory are in the PAVER SMS. The Army will fully implement and 
reconcile the RAILER and PAVER SMS data with the real property database 
by the OSD deadline. The Army is preparing the BUILDER SMS evaluations 
for integration with its existing Installation Status Report (the 
current Facility Condition Index generation system for the Army), the 
General Fund Enterprise Business System, and the Logistics Management 
System. We anticipate completion of the BUILDER SMS implementation by 
fiscal year 2021. OSD policy implementation did not change Army fiscal 
year 2016 or future year budgets.
    Mr. Wittman. What are the services' plans to mitigate the impact of 
reduced OCO funding on base operating support and facilities 
sustainment, modernization, and restoration?
    General Halverson. The Army requires no mitigation plan for CONUS 
installations because no OCO funding is applied to base operating 
support of facility SRM stateside. However, the Army relies on OCO 
funding for base operating support and facilities SRM for specific 
initiatives in Europe and CENTCOM. The Army will need to prioritize 
funding for the most critical initiatives, scope facility requirements 
to minimum standards to support mission, and leverage host nation 
capabilities to mitigate reduced OCO funds.
    Mr. Wittman. Given consecutive years of funding below the 100% of 
BOS requirements, how is BOS funding prioritized in terms of which 
activities and services will be supported at a given installation? How 
have those decisions to reduce services or support impacted military 
readiness and operation or training requirements?
    General Halverson. BOS funding distribution is prioritized based on 
life, health, and safety as well as statutory and fiscal obligatory 
requirements such as: salaries, utilities, leases, fire and emergency 
services, environmental compliance, and essential Family programs. As 
the result of consecutive years of funding below 100% of requirements, 
the Army has taken risk in areas of facility operations in engineering 
and municipal services, and the environment. These funding reductions 
create challenges across our installations as the Army seeks to provide 
a sustainable base for training and quality of life for our Soldiers, 
Families, and Civilians.
    Mr. Wittman. To what extent has BOS funding been used for other 
department priorities or taken away from other department priorities in 
recent years? How has this affected the services' ability to provide 
installation support?
    General Halverson. The Army took risk in BOS to support training 
readiness. Taking risk in installation funding affects readiness and 
negatively impacts the ability to proactively manage the installation 
to ensure adequately sustained facilities and efficient predictable 
service delivery. Soldier training and power projection are dependent 
on installation facilities and support. Continued risk in installation 
readiness erodes the ability to maintain this vital balance.
    Mr. Wittman. Have reductions in civilian- or contract-provided 
services for utility system operations; installation equipment 
maintenance; engineering services including fire protection, crash 
rescue, custodial, refuse collection, snow removal, and lease of real 
property; security protection and law enforcement; and motor pool 
transportation operations impacted availability of facilities that 
support operations and training?
    General Halverson. Yes, reductions in civilian/contract provided 
services have affected the availability of key facilities because many 
of those services ensured the continued access to both facilities and 
infrastructure. Reduced civilian/contract services create unpredictable 
support and increase response time to address basic garrison operating 
functions. Soldier Readiness relies on predictable training, which 
requires assured access to not only operations and training facilities, 
but to all the underlying infrastructure and utilities on an 
installation. The reductions in civilian/contract services also include 
municipal services, feeding our Soldiers in dining facilities, 
providing readiness enabling logistical services, and operating 
physical fitness centers. The reduced civilian/contract services erode 
the capability of an installation to provide training support, adequate 
facility sustainment or react quickly to an infrastructure failure 
which interrupts the carefully planned training requirements for our 
units. Current funding requires installations to scale back or cancel 
service contracts and even delay much needed information technology 
infrastructure upgrades.
    Mr. Wittman. What impact has the substantial reduction in MILCON 
spending had on the ability of installations to support readiness and 
serve as power-projection platforms?
    General Halverson. At current funding levels, the Army can address 
only its most urgent facility needs in support of Army readiness 
initiatives, range and training modernization and Combatant Commander 
Global Posture requirements. General infrastructure recapitalization is 
limited to only those failed facilities that most significantly impact 
unit readiness, unit operations and Soldier and Family quality of life.
    Current funding levels are also constraining facility sustainment, 
causing accelerated facilities deterioration. Taking risk in 
Sustainment, Restoration and Modernization funding means facilities 
will cost more to fix later than to sustain now. Therefore, the status 
quo of historically low MILCON funding cannot be maintained 
indefinitely.
    Mr. Wittman. What specific examples can you provide of facility 
conditions affecting the readiness of installations to carry out their 
assigned missions? To what extent have any reported issues been 
addressed? How quickly were any issues able to be addressed?
    General Hudson. One example of facility conditions affecting 
readiness of installations to carry out their assigned missions 
concerns outlying landing fields (OLFs).
    Deteriorating conditions of OLF runways affect a multitude of a 
unit's training and readiness events (T&R). The use of existing runways 
by Fleet Replacement Squadrons (FRS) for new pilot generation and 
operational squadrons for pilot sustainment training becomes limited, 
forcing the need for additional leased tactical landing zones (TLZs) to 
accommodate training. Units conducting parachute drop zone (PDZ) 
training encounter additional administrative and logistical burdens by 
having to transport back to fixed wing capable runways to reload 
aircraft. Units conducting long range raid packages in support of 
advance airbase seizure exercises have artificially limiting parameters 
placed on the tactical employment of forces.
    Of the eight OLF runways in the Marine Corps Installations East 
AOR, only one is in a good state of order, one is in fair condition, 
and six are in poor condition. In the last eight years, only one has 
gone through a restoration program. Under current funding projections, 
it could many years to repair all of the runways. Delay of repairing 
leads to further deterioration of the airfield, increasing the ultimate 
costs of making the runways operational again.
    Another example is the severe lack of operations and command and 
control spaces at Marine Corps Base Camp Pendleton. Staff directorates 
are not co-located and spread out in various facilities which adversely 
impacts operational support. Many facilities designated for operations 
and administrative uses are World War II wood framed structures or 
Quonset huts. These facilities lack proper heating and ventilation 
systems and are no longer meeting life, health, and safety codes. The 
average age of all administrative facilities at Camp Pendleton is 33 
years with over one-third of these facilities over 50 years of age. 
Given current competing priorities, major repair or replacement of 
these facilities are not affordable.
    Mr. Wittman. To what extent do the reported readiness levels of 
installations take into consideration the condition of their 
facilities? Are there other metrics or data points used to assess the 
effect of facility condition on readiness? How have the services 
attempted to quantify the risks they are taking by perennially reducing 
their investments in base support services and infrastructure, if at 
all?
    General Hudson. Readiness reporting for installation facilities 
falls under Mission Essential Task (MET)/Marine Corps Task (MCT) 4.9: 
Provide Base and Station Facilities and Related Infrastructure. Under 
this MET, installations report on providing, developing, and managing 
all real property necessary for the effective administration, 
management, employment, and training of military organizations. This 
includes engineering support; coordination of all real estate 
agreements; construction management; encroachment control; sustainment, 
restoration, and modernization of all Class I and II real property to 
include family and bachelor housing; and utility services.
    Installations report on their ability to provide environmental 
services, housing (billeting, transient, and family housing), and 
utilities (water, electrical, natural gas/compressed gases, sewage and 
waste) to all supported commands. Additionally, designated 
installations report on their ability to provide safe haven and COOP 
during times of threat or recovery from destructive weather as well as 
progress towards compliance with CMC alternative energy goals.
    Funding of FSRM below requirement leads to more costly repairs, 
restoration, and new construction in the future, creating increased 
long-term costs for the American public. Once these facilities degrade, 
there is an increased cost to return these facilities to an acceptable 
facilities condition to meet mission requirements. Continual 
underfunding will lead to a bow wave of requirements in the out-years 
just to bring our facilities back to their current condition ($1 
billion).
    Investments in MILCON will continue to primarily support new 
warfighting platforms, training for the 21st century Marine Corps, 
replace poor and failing facilities, and improving our security and 
safety posture. Reduced funding availability in MILCON will most likely 
result in reduced investments in projects that support the 
consolidation of functions or replacement of existing facilities, which 
would cause degradation in the long-term health of existing facilities. 
Not as many projects would be affordable in any given year delaying the 
positive impact that these projects would have on readiness.
    Marine Corps currently funds base operations to the minimum 
acceptable levels necessary to continue operations throughout the 
fiscal year. At the minimum acceptable level, only mission-essential 
services are provided and minimum legal and safety requirements are 
met. At reduced funding levels, the Marine Corps bases and stations 
will be forced to curtail base operations functions during periods of 
the fiscal year or eliminate lower priority functions that least affect 
the training and operations of our deploying forces. These actions will 
result in immediate and noticeable reductions in service hours, 
customer support, and access to training areas and facilities that 
support routine operations of the Marine Corps and quality of life 
programs.
    Mr. Wittman. What steps, if any, are installations taking to reduce 
the risk that facility conditions will negatively affect their 
readiness to carry out assigned missions? For example, are 
installations dedicating more sustainment and recapitalization funding 
to higher priority facilities and reducing or delaying funding for 
lower priority facilities? How do the installations determine which 
facilities are higher priority for purposes of funding needed 
sustainment? How effective have any risk-reduction actions been? What 
long-term effects, if any, are expected as a result of these actions?
    General Hudson. The Marine Corps has implemented a mission 
dependency index (MDI) that provides the relative value of the mission, 
tasks and functions performed by a facility. The Commandant has 
directed that we prioritize our future investments to ensure proper 
maintenance and repair are allocated to those facilities that have a 
direct mission impact--deemed as mission critical or mission 
significant.
    Underfunding of facilities sustainment in the long-term increases 
the rate of degradation of Marine Corps infrastructure. This leads to 
more costly repairs, restoration, and new construction in the future--
also known as the ``cost of neglect.'' Once these facilities degrade, 
there is an increased cost to return these facilities to an acceptable 
facilities condition to meet mission requirements.
    Continual underfunding will lead to a bow wave of requirements in 
the out-years just to bring our facilities back to its current 
condition.
    We will take significant risk is certain categories of facilities 
such as administrative facilities, warehouses and some personnel 
support facilities in the short term. However, with over half of our 
facilities directly tied to readiness (runways, operations and training 
facilities, utilities) or quality of life (barracks), reduced funding 
over the long term will have an adverse impact on both warfighter 
readiness and quality of life for Marines and their families.
    Mr. Wittman. What progress has the Marine Corps made in 
implementing the 2013 and 2014 OSD policy memorandums regarding the 
standardization of facility condition assessments and use of the 
Facility Sustainment Model? Do you expect to meet the timelines laid 
out in those memorandums? Have your efforts to implement to date 
affected fiscal year 2016 and/or future budgets?
    General Hudson. The Marine Corps has fully implemented the OSD 
policy memorandum regarding the standardization of facilities condition 
assessments.
    The Marine Corps met or exceeded the OSD policy memorandum on 
Facilities Sustainment through FY2014.
    The President's Budget in FY2015 was the first year the Marine 
Corps did not meet the OSD guidance on Facilities Sustainment (79%). We 
had to take risk in our facilities investment programs to support near 
term readiness for our Marines.
    Mr. Wittman. What are the services' plans to mitigate the impact of 
reduced OCO funding on base operating support and facilities 
sustainment, modernization, and restoration?
    General Hudson. The Marine Corps receives very little OCO funding 
for BOS and FSRM. However, a reduction in OCO for the operating forces 
results in increased competition for limited resources in the base 
budget.
    As the Marine Corps prioritizes near term readiness, there is 
further migration of funds from installations to the operating forces 
to cover higher priority shortfalls due to the lack of OCO funding. For 
instance, during OIF/OEF, OCO funds typically covered all costs 
associated with both the Personal Effects and Privately Owned Vehicle 
(POV) storage contracts. Although II Marine Expeditionary Force (II 
MEF) and Marine Special Operations Command (MARSOC) were the principal 
users, the installation commanders on the East Coast (home of the 
deploying forces) are responsible for paying the bill. During peak 
deployment years, both contracts accounted for almost $1M annually. OCO 
funds have not been available since Fiscal Year 2014 so both contracts 
have required a plus up in baseline funding. In accordance with the 
Joint Travel Regulation, both programs are entitlements and, therefore, 
fully funding the requirement is a ``must-pay'' bill.
    Mr. Wittman. Given consecutive years of funding below the 100% of 
BOS requirements, how is BOS funding prioritized in terms of which 
activities and services will be supported at a given installation? How 
have those decisions to reduce services or support impacted military 
readiness and operation or training requirements?
    General Hudson. The Marine Corps prioritizes mission-essential 
services related to life, safety, and health at the bases and stations. 
Fire protection, emergency response and services, and occupational 
safety and health and programs fall into this category.
    Secondary to this, the Marine Corps prioritizes mandatory and 
statutory programs, including environmental compliance.
    Finally, the Marine Corps considers utilities and civilian labor as 
must pay bills for the continuance of operations and maintaining the 
morale of the workforce.
    Mr. Wittman. To what extent has BOS funding been used for other 
department priorities or taken away from other department priorities in 
recent years? How has this affected the services' ability to provide 
installation support?
    General Hudson. Marine Corps bases and stations are currently 
funded at a high risk level in most areas of BOS, with funding limited 
to basic life, safety, health and statutory requirements.
    Reductions in BOS to the high risk level have impacted civilian 
personnel, including reductions in our Law Enforcement Program, delayed 
replenishment and replacement of furniture and equipment for BEQs and 
office spaces, reduced Semper Fit, Community Support and Family Care 
programs, and increased risk enterprise network infrastructure 
operations.
    As an example, for Marine Corps Installations East (primarily 
located in the Southeast portion of the United States), the most acute 
impact of funding cuts is felt by the civilian workforce. At Camp 
Lejeune, before the massive construction build up to support the 
increased Marine Corps force structure, the base had a large deficit in 
bachelor housing, maintenance, warehouse, and administrative 
facilities. The large investment in military construction funding 
during this build-up addressed many of these requirements. However, the 
base staff is now in a position of supporting a larger facilities 
footprint with a smaller workforce. The workforce may be able to keep 
up with immediate tasks, but it is extremely challenged to perform the 
long-term tasks necessary to sustain and operate the additional and 
more complex infrastructure and preserve the capabilities and readiness 
of Marine Corps installations.
    Mr. Wittman. Have reductions in civilian- or contract-provided 
services for utility system operations; installation equipment 
maintenance; engineering services including fire protection, crash 
rescue, custodial, refuse collection, snow removal, and lease of real 
property; security protection and law enforcement; and motor pool 
transportation operations impacted availability of facilities that 
support operations and training?
    General Hudson. While there is limited direct impact on our 
facilities, there is greater impact on our Marines.
    The requirements to execute these functions (facilities 
maintenance, utility system operations, installation equipment 
maintenance, custodial, refuse collection, etc.) continue despite the 
reduction in civilian and contract provided services. As a result, 
Marines are required to perform some of these ``housekeeping'' duties 
which takes them away from their mission of training and operations. 
Instead of conducting pre-deployment training for our forward deployed 
mission and MOS specific skill training, Marines are cutting the grass 
and maintaining the equipment and infrastructure. Shortfalls in 
security manning for our installations results in the Operating Force 
having to augment installation security.
    Mr. Wittman. What impact has the substantial reduction in MILCON 
spending had on the ability of installations to support readiness and 
serve as power-projection platforms?
    General Hudson. Investments in MILCON will continue to primarily 
support new warfighting platforms, force relocations (Pivot to the 
Pacific, AVPLAN), training for the 21st century Marine Corps, replace 
poor and failing facilities, and improving our security and safety 
posture.
    Reduced funding availability in MILCON will most likely result in 
reduced investments in projects that support the consolidation of 
functions or replacement of existing facilities, which would cause 
degradation of the long-term health of existing facilities
    With lower budgets, not as many projects would be affordable in any 
given year, delaying the positive impact that these projects would have 
on readiness. Given our focus to support new warfighting platforms and 
Pivot to the Pacific, reduced funding will likely decrease our ability 
to support other required MILCON efforts such as:
    <bullet>  ATFP projects to meet standards and security programs
    <bullet>  Environmental compliance
    <bullet>  First Responder support
    <bullet>  Ground maintenance and depot operations
    <bullet>  Quality of Life
    <bullet>  Utilities and communications modernization
    In addition to funding challenges associated with MILCON, the 
Marine Corps will also be challenged to support all training needs. 
Installations must continually evaluate emergent training requirements 
to support the operational forces. These requirements are developed 
from new weapon systems, ammunition, tactics, and techniques, and 
theater specific training requirements. While there is a necessity to 
continually provide innovative relevant training venues and systems to 
the operating force, constrained funding pits modernization efforts 
against sustainment and recapitalization efforts. This requires a 
tradeoff between preparing for the future while maintaining the 
baseline necessities to fulfill the training and readiness standards 
for the operating forces.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. Is there a way the Army can translate funding spent 
on excess infrastructure to readiness? For instance, if the Army were 
able to dispense with the 1% of its infrastructure (of which 18% is 
estimated to be excess) how much readiness would that produce? What is 
the best measure?
    General Halverson. The associated costs of sustaining and managing 
excess infrastructure impact readiness, however, the costs do not 
typically have a one-for-one relationship. Reducing excess 
infrastructure improves the readiness of our installations and the 
ability of our installations to support mission requirements.
    The money spent on sustaining excess infrastructure is an 
opportunity cost. Most of the excess infrastructure is in the form of 
underutilized (not empty) buildings. Eliminating 100% excess 
infrastructure capacity is unrealistic because some underutilized 
capacity is on high-military value installations. Utilizing this excess 
capacity may come through a BRAC to reallocate resources.
    The Army's $500M estimate of excess capacity expenses is 
conservative. It only considers the costs of sustaining 160 to 190 
million square feet of excess capacity. The cost of providing 
utilities, security, and running the installations upon which these 
buildings sit, is much more significant. Base Operations Support (BOS) 
costs do not change significantly when an installation loses 10 or 20 
percent of its assigned personnel, because installation operational 
costs are relatively fixed.
    Thus, closing a few lower military value installations through 
BRAC, and realigning the remaining missions into available excess 
capacity at the remaining, higher-military-value installations, is 
where the Army would produce the vast majority of BRAC savings.
    Whether excess capacity is reduced at the margins (i.e., using 
current law), or reduced significantly through the BRAC, the Army would 
seek to free up a reoccurring source of savings to reinvest and 
increase our installations' capacity to support mission or training 
readiness.

                                  [all]
</pre></body></html>
